U.S. DEPARTMENT OF TRANSPORTATION | OFFICE OF INSPECTOR GENERAL



semiannual report
                                          TO C O N G R E S S




                                 www.oig.dot.gov
  OCTOBER 1, 2012 –
                                 1200 New Jersey Avenue, SE
  MARCH 31, 2013
                                 Washington, DC 20590
“DREAMLINER” BY MICHAL BARANOWSKI / CC BY-NC-SA 2.0
TABLE OF CONTENTS



FROM THE INSPECTOR GENERAL  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

AUDITS AND INVESTIGATIONS  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
                Aviation  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
                Highway and Transit  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 17
                In Focus: Combating Household Goods Fraud  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 31
                Rail, Maritime, Hazmat Transport, and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 35
                Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41
                Acquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 47
                In Focus: Overseeing MWAA’s Governance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 51
                Departmentwide Issues  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 55
                In Focus: Tracking OIG Recommendations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 59

OTHER ACCOMPLISHMENTS  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 63

WORK PLANNED AND IN PROGRESS .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 65
                Aviation  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 65
                Highway and Transit  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 73
                Rail, Maritime, Hazmat Transport, and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 77
                Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 81
                Acquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 87

STATISTICAL PERFORMANCE DATA  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 93
                Summary of Performance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 93
                Audits .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 94
                Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 116

PEER REVIEW  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 119

MISSION AND ORGANIZATION  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 121

CONTACTS  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 122




                                                                                                                                                                 Semiannual Report to Congress  |  1
2  |  From the Inspector General
                                                             FROM THE INSPECTOR GENERAL



                                                             I am pleased to present the Department of Transportation (DOT), Office of Inspector
                                                             General’s Semiannual Report to Congress for the first half of fiscal year 2013. Our audits
                                                             and investigations support the Department’s strategic goals of safety, livable communities,
                                                             economic competiveness, environmental sustainability, and state of good repair. Over the
                                                             past 6 months, we issued 67 audit reports with a total of 170 recommendations, including
                                                             financial recommendations totaling over $2.75 billion. Our investigative work resulted in
                                                             40 indictments, 40 convictions, and a total of almost $6.15 million in fines, restitution, and
                                                             recoveries.

                                                             Our aviation work this period continued to identify opportunities to improve safety and
                                                             achieve savings in the Federal Aviation Administration’s (FAA) management of the Nation’s
                                                             airspace and oversight of the aviation industry. We reported concerns regarding FAA’s
                                                             efforts to mitigate losses of separation between aircraft, realign air traffic facilities, ensure
                                                             transparency and accountability in its Contract Tower Program, monitor domestic code
                                                             share relationships between airlines, and implement requirements of the Airline Safety Act.
                                                             We also remain committed to protecting U.S. investments in FAA’s multi-billion dollar Next
                                                             Generation Air Transportation System and to ensuring the future viability of the National
                                                             Airspace System. To safeguard the integrity of this system, our investigations continued
                                                             to aggressively pursue individuals who compromise safety through greed-based schemes,
“TRESTLE ON LAKE SHASTA” BY STEVEN MONCK / CC BY-NC-ND 2.0




                                                             including the use of unapproved parts in aircraft repairs, falsified certification of aircraft
                                                             design and parts, fraudulent airman certification, and bogus safety inspections.

                                                             Our highway and transit work also identified areas where action is needed to ensure safety
                                                             while protecting Federal investments. Our investigations targeted individuals intent on
                                                             bilking the Government out of millions of dollars, including funding provided through the
                                                             American Recovery and Reinvestment Act (ARRA) of 2009 for highway infrastructure
                                                             projects. Wage fraud, bribery, false claims, and disadvantaged business enterprise fraud
                                                             diverted Federal dollars from legitimate firms and degraded the quality of taxpayers’
                                                             investments. Our investigations also continued to provide the evidence needed to
                                                             prosecute commercial drivers who endanger the Nation’s highways by operating illegally




                                                                                                                          Semiannual Report to Congress  |  3
with falsified licenses and driving logs. Our highway and transit audits similarly found
opportunities to enhance safety and oversight through improved risk assessments and use
of safety data.

Our rail work continued to focus on the Federal Railroad Administration’s (FRA) efforts to
meet its responsibilities under the Passenger Rail Investment and Improvement Act and
ensure that the Government’s investments in the $10 billion grant program for high-speed
intercity passenger rail achieve their intended benefits. We also assessed Amtrak’s new cost
accounting system and made recommendations for improving the precision of its financial
performance reporting. Our investigations uncovered fraud schemes that put at risk Federal
funds intended to support local rail systems.

Our audits continue to identify significant vulnerabilities in DOT’s $2.2 billion information
technology (IT) portfolio. Ongoing security threats and risks to the Department’s IT
systems—both departmentwide and within specific programs, including those that support
U.S. air traffic modernization efforts—remain a significant concern. Closing security gaps
in DOT’s information systems is critical for ensuring the Nation’s transportation systems
remain safe and for protecting Federal dollars from waste and fraud. A comprehensive IT
management framework is also needed to make well-informed investment decisions and
oversee DOT’s major IT assets. Ensuring effective management of DOT’s acquisitions to




  6months
                            $
                               2.75B
                               in financial
                               recommendations
                                                                   $
                                                                       6.15M
                                                                     in fines, restitution,
                                                                     and recoveries




4  |  From the Inspector General
   maximize value and program performance remains a top management challenge for the
   Department.

   Finally, we continued to monitor the Metropolitan Washington Airports Authority’s
   (MWAA) efforts to address governance weaknesses that we identified through our audits
   and investigations.

   Our work continues to reflect our commitment to fully inform Congress, the Department,
   and the public of pressing transportation concerns and to aggressively pursue individuals
   intent on defrauding the Government. I commend and thank our hard-working staff for
   their outstanding efforts and dedication to our critical mission. I would also like to thank
   Secretary LaHood for his strong leadership in these challenging times. I look forward to
   continuing to work with the Secretary, his team, and the modal administrators to provide
   Americans with a safe transportation system that meets the national objectives of general
   welfare, economic growth and stability, and security.




   Calvin L. Scovel III




 67                        170                             40                        40
audit reports              recommendations                 indictments               convictions
issued




                                                             Semiannual Report to Congress  |  5
           OIG’S AVIATION WORK EMPHASIZES SAFETY AND ECONOMY THROUGH
           AUDITS OF AIR TRAFFIC CONTROL OPERATIONS, ACQUISITION AND
           MODERNIZATION OF ASSETS, PROGRAM OVERSIGHT, AND CUSTOMER
           SERVICE, AND THROUGH INVESTIGATIONS OF COUNTERFEIT AND
           SUBSTANDARD AIRCRAFT PARTS, FALSIFIED MAINTENANCE RECORDS, AND
           FRAUDULENT PILOT AND MECHANIC CERTIFICATIONS




6  |  Audits and Investigations
AUDITS AND INVESTIGATIONS
AVIATION
Audits

November 5, 2012                                        January 17, 2013
CONTRACT TOWERS CONTINUE                                LETTER TO CONGRESSMAN
TO PROVIDE COST-EFFECTIVE AND                           NEUGEBAUER REGARDING FAA’S
SAFE AIR TRAFFIC SERVICES, BUT                          DECISION TO REALIGN THE ABILENE,
IMPROVED OVERSIGHT OF THE                               TX, TRACON FUNCTIONS INTO THE
PROGRAM IS NEEDED                                       DALLAS-FT. WORTH TRACON
Requested by the House Committee on                     Requested by Representative Randy Neugebauer
Appropriations
                                                        FAA developed three business cases to evaluate
Established in 1982, FAA’s Federal Contract Tower       the costs and potential savings associated with the
Program currently oversees 250 contract towers          realignment of Abilene Regional Airport’s terminal
that provide air traffic control services to airports   radar approach control facility. One business
nationwide at lower costs than similar FAA              case—created by an independent contractor in
towers. On average, a contract tower costs about        February 2011—provides the most detailed cost
$1.5 million less to operate than a comparable          comparison with its projected long-term air traffic
FAA tower, mainly due to lower staffing and             controller labor costs, the largest cost driver of
salary levels. In addition, contract towers had         the realignment. However, none of these business
lower numbers and rates of safety incidents             cases provides enough information to determine
compared to similar FAA towers. Users remain            whether the realignment would result in future
strongly supportive of the program; however,            cost savings or operational benefits. We also
we identified opportunities for FAA to enhance          reported that the assumptions used in the three
program oversight, including strengthening its          business cases regarding staffing levels, equipment,
financial controls and implementing voluntary           and other items only represent estimates of future
safety reporting systems at contract towers. FAA        costs, and will likely differ from what will actually
concurred with our three recommendations to             be implemented, resulting in different costs and
improve the Agency’s oversight of the contractual       savings.
and safety aspects of the program.




                                                                   Semiannual Report to Congress  |  7
Audits

January 31, 2013                                       We made five recommendations to FAA to improve
                                                       its efforts in implementing the Act. FAA concurred
FAA AND INDUSTRY ARE                                   or partially concurred with all five, but we are
ADVANCING THE AIRLINE SAFETY                           requesting that the Agency submit additional
                                                       information on or reconsider its response to three.
ACT, BUT CHALLENGES REMAIN TO
ACHIEVE ITS FULL MEASURE
                                                       February 14, 2013
Requested by the Ranking Members of the House
Committee on Transportation and Infrastructure;
                                                       GROWTH OF DOMESTIC AIRLINE
Its Subcommittee on Aviation; the Chairmen and         CODE SHARING WARRANTS
Ranking Members of the Senate Committee on             INCREASED ATTENTION
Commerce, Science, and Transportation; and Its
Aviation Subcommittee                                  Requested by the Ranking Members of the House
                                                       Committee on Transportation and Infrastructure and
Following the February 2009 Colgan Air crash,          the Subcommittee on Aviation
Congress passed the Airline Safety and FAA
Extension Act of 2010. FAA has made considerable       Mainline air carriers have increasingly entered into
and important progress implementing many               domestic code share agreements with smaller
elements of the act, such as advancing voluntary       regional carriers to provide flights to their hub
safety programs, improving pilot rest requirements,    airports. Today, regional airlines account for over
and establishing better processes for managing         half of all scheduled commercial passenger flights,
safety risks. Despite this progress, the Agency        operating more than 13,000 flights daily and
has not sufficiently targeted assistance to smaller    carrying approximately 160 million passengers.
air carriers, which face the most challenges           However, most domestic code share agreements
in developing and implementing new safety              go into effect without DOT review. While the
programs. In addition, FAA faces challenges with       Office of the Secretary (OST) is required to assess
meeting timelines for key rulemaking efforts and       the impact that agreements between two major
developing a long-term strategy for transitioning to   carriers may have on competition, only one-fifth
a new pilot records database, including addressing     of regional carriers are considered major. Further,
privacy concerns.                                      FAA is not required to review domestic code
                                                       share agreements and does not have specific
                                                       procedures to advance its commitment to ensure
                                                       an equivalent level of safety between mainline air




8  |  Audits and Investigations
Audits

carriers and their code share partners. Instead,        Roughly 7,000 aircraft occupy U.S. airspace at
the Agency relies on its oversight of individual        any given time. To help maintain safe distances
carriers to ensure the safe operation of passenger      between air traffic controlled aircraft, FAA
flights. Consequently, code share agreements with       established minimum separation standards based
unintended safety risks, such as financial incentives   on the aircraft’s phase of flight and size. Between
based on performance, could go unidentified. At         fiscal years 2009 and 2010, the number of reported
the same time, consumers are often confused             operational errors—losses of separation caused by
about which airline is operating their flight because   air traffic controllers—increased by more than 50
carriers, travel agencies, and advertisers do not       percent. According to FAA, this increase was mostly
regularly disclose this information.                    due to enhanced reporting through new voluntary
                                                        and automated reporting programs. However,
We made five recommendations to enhance                 FAA lacks an accurate baseline of the number of
OST and FAA’s monitoring of domestic code               separation losses, and we determined that the
share relationships and to increase code                increase was linked, in part, to a rise in actual errors
share transparency for consumers. In a joint            and other contributing factors. Although FAA
response, OST and FAA concurred with two                recently instituted new policies and procedures
recommendations and partially concurred with            for improving the collection, investigation, and
three. We are requesting that OST and FAA provide       reporting of separation losses, the effectiveness of
additional information or reconsider their position.    these procedures is limited by incomplete data and
                                                        implementation challenges. FAA also developed
February 28, 2013                                       new corrective action plans to mitigate high-risk
                                                        separation loss events. While it is too early to
FAA’S EFFORTS TO TRACK AND                              determine their effectiveness, the plans do not
                                                        include all safety risks that FAA has identified and
MITIGATE AIR TRAFFIC LOSSES OF                          will not address all losses of separation that air
SEPARATION ARE LIMITED BY DATA                          traffic facility officials consider to be high risk.
COLLECTION AND IMPLEMENTATION                           FAA concurred with four and partially concurred
CHALLENGES                                              with two of our six recommendations to improve
                                                        the Agency’s policies and processes for identifying
Requested by the Senate Committee on Commerce,          and mitigating separation losses. We are requesting
Science, and Transportation; its Subcommittee           that FAA provide additional information or
on Aviation Operations, Safety, and Security; and       reconsider its response for two recommendations.
the House Committee on Transportation and
Infrastructure




                                                                   Semiannual Report to Congress  |  9
Investigations

October 11, 2012                                      October 18, 2012
GEORGIA AVIATION CONSULTANT                           MULTIPLE INDIVIDUALS SENTENCED
SENTENCED FOR PRODUCING                               FOR THEIR ROLES IN AN AIRCRAFT
FRAUDULENT FAA SUPPLEMENTAL                           PARTS CONSPIRACY
TYPE CERTIFICATES                                     Rangel Fernandez, President; Ivan Fernandez,
Following his July 2012 guilty plea to conspiracy,    Vice-President; and Jerry Frystak, General
Andrew K. Anderson—owner of Andrew K.                 Manager, Aircraft Transparencies Repair (ATR)
Anderson, Aviation Consultant, LLC, Cartersville,     and Transparencies Engineering Group (TEG),
GA—was sentenced in U.S. District Court, Rome,        were sentenced in U.S. District Court, Fort
GA, to 37 months imprisonment and 3 years             Lauderdale, FL, for their roles in a scheme involving
supervised release for his role in the forgery of a   false representations that aircraft windows
supplemental type certificate (STC) that falsely      were overhauled properly when they were not.
represented that Anderson obtained FAA approval       Rangel Fernandez was sentenced to 48 months
to modify a regulated aircraft. Anderson was          incarceration, 3 years probation, and ordered
also ordered to pay $1,115,333 in restitution to      to pay $68,033 in restitution. Ivan Fernandez
his victims. FAA issues STCs to applicants who        was sentenced to 37 months incarceration and
receive approval to modify an aircraft from its       3 years probation, and ordered to pay $68,033
original type design. The STC approves not only the   in restitution. Jerry Frystak was sentenced to 10
modification but also how that modification affects   months incarceration and 1 year probation.
the original design. SIA Engineering Company          These sentences stem from a multi-count
contracted Anderson to obtain STCs to make            indictment against 16 employees of ATR and
interior modifications to a Boeing aircraft owned     TEG for conspiracy to sell and falsely certify to
and operated by Dubai Air Wing, a branch of the       commercial aviation customers the airworthiness
Dubai Government responsible for providing air        of aircraft cockpit windows. OIG’s investigation
transportation for government officials. Anderson     revealed that from approximately August 2009 to
provided the STCs to Dubai Air Wing, purporting       August 2010, ATR employees continued repairing
FAA issued them, when in fact they were forged        aircraft cockpit windows under a repair station
documents.                                            certificate that was revoked in July 2009. As part of
This investigation was conducted with assistance      the scheme, ATR and TEG purchased “as removed”
from FAA.                                             aircraft cockpit windows on the open market and
                                                      backdated documents to make it appear as if the




10  |  Audits and Investigations
Investigations

windows had been retrieved from inventory prior         October 23, 2012
to the certificate’s revocation. Additionally, serial
numbers on the windows were changed to disguise         FLORIDA PILOT SENTENCED FOR
the source and to further make it appear that all       FALSIFICATION OF HIS FAA AIRMAN
work had been performed prior to the revocation.
                                                        MEDICAL CERTIFICATE APPLICATION
On October 19, 2012, Lisbet Gonzalez, former
Office Manager, was sentenced to 21 months              Jonathon Vondracek, a commercial pilot and
incarceration and 3 years supervised release, and       certified flight instructor, was sentenced in U.S.
ordered to pay $11,818.76 in restitution. Hermes        District Court, Tampa, FL, to 5 years probation
Reyes, aircraft window painter, was sentenced           and 90 days home detention for falsifying his FAA
to 4 years probation and 200 hours community            airman medical application. He was also ordered
service, and ordered to pay $7,150 in restitution.      to perform 100 hours of community service, and to
Myriam Cobo, sales representative, was sentenced        pay a fine of $2,000 and $51,237 in restitution to the
to 3 years probation, and ordered to perform 150        U.S. Department of Veterans Affairs (VA).
hours of community service and to pay $9,600 in
                                                        The investigation revealed that the VA awarded
restitution.
                                                        Vondracek, a Navy veteran, 80 percent medical
On December 6, 2012, Dennis Romero, Shop                disability benefits for a series of service related
Supervisor, ATR and TEG, was sentenced in U.S.          medical conditions that included chronic
District Court, Fort Lauderdale, FL, to 45 months       obstructive pulmonary disease (COPD). Vondracek
incarceration and 3 years probation, ordered to         failed to disclose these medical conditions and his
pay $11,149.76 in restitution, and prohibited from      receipt of disability benefits on three FAA airman
working in the aviation industry while on probation.    medical certificate applications. The investigation
                                                        further determined that Vondracek did not actually
This investigation is being conducted jointly with      suffer from COPD. As a result of these findings,
the Department of Labor (DOL) Office of Inspector       Vondracek’s FAA-issued airman and medical
General; the Federal Bureau of Investigation (FBI);     certificates were revoked.
and Immigration and Customs Enforcement, with
substantial assistance from FAA.                        This investigation was conducted jointly with the
                                                        VA Office of Inspector General.




                                                                  Semiannual Report to Congress  |  11
Investigations

October 29, 2012                                      This investigation was conducted jointly with the
                                                      Defense Criminal Investigative Service.
SOUTHERN CALIFORNIA CHEMICAL
PROCESSING COMPANY                                    October 30, 2012
SENTENCED FOR PROVIDING FALSE
                                                      FORMER OPERATIONS MANAGER
STATEMENTS RELATED TO AIRCRAFT
                                                      PLEADS GUILTY TO RECKLESSLY
PARTS
                                                      ENDANGERING AIRCRAFT
Bowman Plating Company, Inc., a chemical
processing company in Compton, CA, was                Jerry E. Kuwata, former operations manager, WECO
sentenced in U.S. District Court, Los Angeles,        Aerospace Systems, Inc., Lincoln, CA, pleaded
CA, for providing false statements related to         guilty in U.S. District Court, Sacramento, CA, to
the chemical processing of aircraft parts sold        conspiracy to destroy an aircraft. According to
to commercial aviation companies and to the           the plea agreement, Kuwata conspired to conceal
Department of Defense. Bowman was ordered             from customers and FAA that aircraft repairs
to pay a fine of $500,000, a special assessment of    did not comply with manufacturers’ component
$1,200, and to serve 3 years probation.               maintenance manuals—FAA-approved step-by-
                                                      step guides that certified repair stations must
In 2006, several companies submitted purchase         follow when conducting repairs and the tests and
orders listing required specifications for Bowman     inspections that must be done before parts can
to complete chemical film coating—used to             be returned to service. OIG’s investigation found
provide maximum corrosion resistance to               that Kuwata and his co-conspirators performed
aluminum alloy parts—for their aircraft parts.        or regularly directed WECO technicians to use
Bowman performed the coating, issued certificates     unapproved parts in repairs—including, allegedly,
of conformance (COC) certifying that the aircraft     a paper clip—and did not have the equipment
parts were processed in accordance with applicable    needed to perform many of the required tests. Two
specifications, and shipped the coated parts to his   co-conspirators, Michael Maupin and Anthony Zito,
customers. Bowman also retained a third-party         have already pleaded guilty and await sentencing.
testing company to perform a chemical process
control test, and the company issued a report         This investigation is being conducted jointly with
documenting that the test had failed. The parts       the FBI and Department of Homeland Security,
had already been shipped along with the COCs, and     Office of Inspector General.
Bowman did not notify its customers of the failure.




12  |  Audits and Investigations
Investigations

December 10, 2012                                      January 16, 2013
MODESTO MAN ORDERED TO                                 CONSTRUCTION PROJECT
REIMBURSE FAA $60,000 FOR                              MANAGER SENTENCED FOR HIS
DAMAGE CAUSED TO MODESTO                               ROLE IN DBE FRAUD SCHEME ON
AIRPORT                                                NEW YORK AREA FAA-FUNDED
Kody Estepp was sentenced in U.S. District Court,
                                                       PROJECT
Fresno, CA, to 1 month time served and 36 months       Richard Schultz, project manager of Nationwide
supervised release for conspiring to steal 2,800       Construction, was sentenced in U.S. District Court,
feet of copper cable from the Medium Intensity         New York, NY, to 6 months home confinement
Approach Lighting System at the Modesto Airport.       to be followed by 3 years probation and 100
Estepp was also ordered to pay $60,000 in              hours community service. He also consented to a
restitution to FAA for damages.                        monetary forfeiture of $61,750.
OIG began its investigation based on a referral from   Schultz admitted that between 2007 and March
FAA alleging vandalism to the Modesto Airport’s        2011, he conspired with Madeline Pepe, of the
approach lighting system. The investigation            Staten-Island based MS Construction Corporation,
determined that on several occasions in January        to commit disadvantaged business enterprise (DBE)
2012, Estepp, and his co-conspirator, Robin            fraud on a project funded through an FAA airport
Vanderheiden, broke into airport lighting towers,      improvement project grant. The investigation
stole copper wire from the enclosed systems, and       disclosed that Nationwide Construction (a
sold the stolen wire for cash or illegal narcotics.    non-DBE) fraudulently performed a $1.1 million
The theft of the copper cable caused the airport’s     fencing subcontract that was contracted to MS
approach lighting to become inoperable, which          Construction (a DBE) on an FAA-funded project at
posed a significant safety risk to incoming aircraft   LaGuardia Airport in Queens, NY. They conspired to
and neighboring residents, and may have required       file documents with the Port Authority of New York
the diversion of aircraft.                             & New Jersey, creating the appearance that MS
This investigation was conducted jointly with the      Construction had performed the contract when, in
Modesto Police Department, with assistance from        fact, it did not.
FAA.                                                   This case is being conducted jointly with the DOL
                                                       Office of Inspector General; the Port Authority
                                                       of New York & New Jersey, Office of Inspector




                                                                Semiannual Report to Congress  |  13
Investigations

General; and the New York City Department of             helicopter crashed while performing contracted
Investigation.                                           firefighting services for USFS. One of the crash
                                                         victims was a USFS employee. NTSB’s safety
                                                         investigation of the crash uncovered allegations
February 1, 2013                                         that Carson falsified documents pertaining to a
                                                         helicopter involved in the crash, which included
FORMER CARSON HELICOPTER                                 weight and balance sheets and performance
EXECUTIVE INDICTED FOR FRAUD                             charts that enable a pilot to make accurate
AND ENDANGERING THE SAFETY                               maximum payload calculations. The investigation
                                                         determined that Carson submitted falsified or
OF AIRCRAFT IN FLIGHT                                    altered documents to USFS as part of its bid
                                                         package, which included an altered FAA-approved
Steven Metheny and Levi Phillips were indicted by
                                                         performance chart and altered weight and balance
a Federal grand jury in Medford, OR, for their roles
                                                         charts. Carson pilots relied on these documents
in falsifying documents pertaining to a helicopter
                                                         when determining their helicopter maximum
owned and operated by Carson Helicopter.
                                                         payload calculations.
Metheny is a former Vice President of Carson,
and Phillips is the former Director of Maintenance       This investigation is being conducted jointly
and had reported directly to Metheny. Both men           with the FBI; Internal Revenue Service, Criminal
were charged with conspiracy to defraud the U.S.         Investigation (IRS-CI); and the U.S. Department of
Forest Service (USFS) in connection with contracts       Agriculture, Office of Inspector General.
awarded to Carson in 2008 for helicopter services in
firefighting operations. Metheny was also charged        Note: Indictments, informations, and criminal
with mail and wire fraud, making false statements        complaints are only accusations by the Government.
to USFS, endangering the safety of aircraft in flight,   All defendants are presumed innocent unless and
and theft from an interstate shipment. A Carson          until proven guilty.




14  |  Audits and Investigations
Investigations

March 26, 2013                                          Joel Stout admitted that between October 2006
                                                        and October 2009, Flying Tigers charged customers
PENNSYLVANIA MAN CONVICTED                              for more than 75 questionable annual aircraft
IN FALSE AIRCRAFT INSPECTION                            inspections that were either not performed by FAA
                                                        certified mechanics, or not performed at all. Joel
SCHEME                                                  Stout further admitted that Flying Tigers officials
                                                        prepared fraudulent certifications and forged
Joel Stout, of Elizabethtown, PA, pleaded guilty in
                                                        signatures of an unsuspecting certified inspector
U.S. District Court, Philadelphia, PA, to conspiracy
                                                        who had not performed the inspections. The fraud
and mail fraud related to his participation in a
                                                        also included billing customers for the inspections
fraud involving unauthorized aircraft inspections
                                                        that were not properly certified. Stout furthered
and repairs at Flying Tigers, Inc., a former airplane
                                                        the scheme by mailing invoices for the fraudulently
repair business in Marietta, PA. Stout’s father,
                                                        performed inspections and receiving payments
Jay Stout, the president of Flying Tigers, Inc., and
                                                        from customers.
Howard Gunter, a retired FAA examiner, were
previously charged in the scheme.




                                                                 Semiannual Report to Congress  |  15
           OIG’S HIGHWAY AND TRANSIT WORK EMPHASIZES SAFETY AND ECONOMY
           THROUGH AUDITS OF FEDERAL INFRASTRUCTURE PROGRAMS, HIGHWAY
           SAFETY EFFORTS, AND MOTOR CARRIER OVERSIGHT PROGRAMS, AND
           THROUGH INVESTIGATIONS OF FRAUDULENT COMMERCIAL DRIVERS
           LICENSES, DRIVERS’ LOGS, AND TRUCK AND BUS MAINTENANCE RECORDS, AS
           WELL AS HOUSEHOLD GOODS FRAUD SCHEMES, CONTRACTING AND ANTI-
           TRUST VIOLATIONS, AND DBE FRAUD




16  |  Audits and Investigations
                                                                                                               AUDITS AND INVESTIGATIONS
                                                                                                               HIGHWAY AND TRANSIT
                                                                                                               Audits

                                                                                                               October 1, 2012                                           November 14, 2012
                                                                                                               IMPROVEMENTS TO STEWARDSHIP                               FHWA HAS OPPORTUNITIES TO
                                                                                                               AND OVERSIGHT AGREEMENTS                                  IMPROVE OVERSIGHT OF ARRA
                                                                                                               ARE NEEDED TO ENHANCE                                     HIGH DOLLAR PROJECTS AND THE
                                                                                                               FEDERAL-AID HIGHWAY PROGRAM                               FEDERAL-AID HIGHWAY PROGRAM
                                                                                                               MANAGEMENT                                                Self-initiated
                                                                                                               Self-initiated
“SR 520 EASTSIDE PROJECT ROADWORK, AUGUST 2011” BY WASHINGTON STATE DEPT OF TRANSPORTATION / CC BY-NC-ND 2.0




                                                                                                                                                                         FHWA is responsible for overseeing $27.5 billion in
                                                                                                               FHWA’s stewardship and oversight agreements               ARRA funding committed to nearly 13,000 highway
                                                                                                               with States formalize the roles and responsibilities      infrastructure projects, ranging from relatively
                                                                                                               of FHWA Division Offices and States to ensure             simple paving projects to more complex bridge
                                                                                                               adequate oversight of Federal funds, project              construction. As part of our ARRA oversight, we
                                                                                                               quality, and safety. While FHWA fulfilled                 audited selected high dollar bridge and highway
                                                                                                               the statutory mandate to enter into these                 projects receiving at least $20 million and $25
                                                                                                               agreements, they do not consistently reflect              million, respectively, in ARRA infrastructure
                                                                                                               Federal requirements or consider program risks            investment grants. One-third of the States in our
                                                                                                               and priorities that FHWA has identified. Notably,         review did not perform required value engineering
                                                                                                               only 9 of 55 agreements refer to ARRA, despite its        (VE) studies during the project planning or design
                                                                                                               being the primary statute that imposed extensive          phase for at least one ARRA project—a weakness
                                                                                                               financial and reporting requirements. Other               we first reported in a June 2010 ARRA Advisory.
                                                                                                               exclusions and inconsistencies may limit Division         Without comprehensive VE studies, FHWA missed
                                                                                                               Offices’ and States’ abilities to effectively carry out   opportunities to maximize ARRA investments.
                                                                                                               their oversight responsibilities. Further, FHWA has       Further, FHWA did not consistently emphasize its
                                                                                                               not provided sufficient guidance and oversight            cost estimating guidelines, designed to help ensure
                                                                                                               to Division Offices for developing and updating           States obligate ARRA funds for projects based on
                                                                                                               the agreements to ensure that inconsistencies             best estimates of project costs. FHWA now must
                                                                                                               reflect valid differences among States, and that          monitor ARRA obligations for any unused or idle
                                                                                                               legal concerns have been identified. We made              funds that result from overestimation or other
                                                                                                               five recommendations for strengthening FHWA’s             occurrences, and make certain that States re-
                                                                                                               oversight of its agreements. FHWA concurred with          obligate or return ARRA funds before they expire
                                                                                                               one and partially concurred with four.                    in 2015. We made four recommendations aimed at




                                                                                                                                                                                   Semiannual Report to Congress  |  17
Audits

ensuring States comply with VE study requirements       risk”—the only State so designated—because of
and have sound cost estimates, and that FHWA            deficiencies in its management of Federal funds
effectively manage remaining unexpended                 and lack of conformance with Federal grant terms
ARRA funds. FHWA generally concurred with our           and conditions.
recommendations.
                                                        Our audit determined that MOHS entered into
                                                        grant agreements with State and local law
February 6, 2013                                        enforcement agencies that allowed the agencies
                                                        to conduct general law enforcement activities
NHTSA’S OVERSIGHT OF                                    that were ineligible for funds—instead of alcohol-
MISSISSIPPI’S MANAGEMENT OF                             impaired driving enforcement activities—which
                                                        resulted in improper payments to sub-grantees.
FEDERAL HIGHWAY SAFETY GRANTS                           MOHS also made claims for reimbursement from
NEEDS STRENGTHENING                                     NHTSA for these activities that were not directly
                                                        related to alcohol-impaired driving. MOHS’s
Requested by the National Highway Traffic Safety        misuse of funds and its inadequate financial
Administration                                          management controls were likely contributing
                                                        factors to these improper payments. While NHTSA
According to the National Highway Traffic Safety        identified needed corrective actions, it lacks
Administration (NHTSA), Mississippi’s rate of           Agency guidance on how and when to invoke its
vehicle fatalities was the highest in the Nation from   high-risk designation, or when to use remedies and
fiscal years 2008 through 2010. For fiscal years        sanctions against States for not complying with
2007 through 2010, NHTSA provided $20.8 million         Federal grant regulations. NHTSA agreed with our
in highway safety grant funds to the Mississippi        four recommendations for improving its oversight
Office of Highway Safety (MOHS). Mississippi            and working with the State of Mississippi on
also transferred $36.3 million from its Federal-aid     specific issues.
highway construction funds to its highway safety
program to be used for alcohol-impaired driving
programs. In January 2011, NHTSA designated
Mississippi’s highway safety program as “high




18  |  Audits and Investigations
Audits

March 20, 2013                                         March 26, 2013
DOT HAS OPPORTUNITIES TO                               FHWA PROVIDES SUFFICIENT
ADDRESS KEY RISK AREAS FOR                             GUIDANCE AND ASSISTANCE TO
PHASE 2 OF THE DULLES CORRIDOR                         IMPLEMENT THE HIGHWAY SAFETY
METRORAIL PROJECT UPON                                 IMPROVEMENT PROGRAM BUT
APPROVAL OF FEDERAL FINANCING                          COULD DO MORE TO ASSESS
Requested by Representatives Frank R. Wolf and Tom
                                                       PROGRAM RESULTS
Latham                                                 Self-initiated
The Dulles Corridor Metrorail Project will add 11      FHWA’s Highway Safety Improvement Program
metro stations and 23.1 miles to the Washington        (HSIP) aims to reduce the number of fatalities
Area Transit Authority’s Metrorail system. Phase 1,    and serious injuries on our Nation’s highways by
which is expected to start transporting passengers     providing funding to States for roadway safety
in 2014, has an estimated cost of $3.1 billion.        improvements, such as guard rails and rumble
Phase 2, which is not yet under construction, is       strips. The program, which is implemented by
estimated to cost $2.5 billion to $3.8 billion. Our    States with FHWA oversight, has received over $13
audit found that DOT has not fully developed an        billion in funding. While FHWA provides sufficient
oversight strategy for Phase 2 because the local       guidance and assistance to States to effectively
funding partners— the Metropolitan Washington          implement HSIP, FHWA’s use of State-reported
Airports Authority (MWAA) and Fairfax and              HSIP data is insufficient to identify program
Loudoun Counties—have yet to receive approval of       outcomes. Accordingly, we recommended that
Federal credit assistance for the project. Because     FHWA improve and increase the use of its online
no Federal dollars have been obligated, we could       reporting tool and to annually compile and
not determine if DOT’s oversight of Phase 2 will       report data on HSIP projects to better assess
be sufficient. Consequently, we are not making         HSIP’s national impact. FHWA concurred with our
recommendations at this time. However, several         recommendations.
lessons learned from our past audits could be
instructive as DOT finalizes its oversight strategy.
Our assessment of Dulles Toll Road revenue
estimates suggests that MWAA’s assumptions for
the estimates are generally reasonable.




                                                                 Semiannual Report to Congress  |  19
Investigations

October 4, 2012                                          October 10, 2012
NORTHERN CALIFORNIA MAN                                  NORTH CAROLINA TRUCKING
SENTENCED IN SCHEME TO                                   COMPANY SENTENCED FOR
DEFRAUD NHTSA’S “CASH FOR                                FALSIFYING DRIVERS’ RECORDS
CLUNKERS” PROGRAM                                        Larry Morris Trucking was sentenced in U.S. District
James Taylor, owner of Pinole-Rodeo Auto                 Court, Greensboro, NC, to 60 months probation for
Wreckers, Rodeo, CA, was sentenced in U.S. District      making false statements relating to the falsification
Court, Oakland, CA, for falsely certifying that he had   of drivers’ hours of service records.
destroyed vehicles after receiving payment from          Federal Motor Carrier Safety regulations limit
dealerships to dispose of them in accordance with        the number of hours a truck driver can operate a
NHTSA’s Consumer Assistance to Recycle and Save          vehicle and require truck drivers to record their
Act (CARS) program. Taylor was sentenced to 1 year       duty status to ensure that they do not exceed
probation and ordered to pay a $3,500 fine.              the maximum number of allowable driving hours
This investigation was initiated after the California    and that they receive sufficient rest before driving
Highway Patrol (CHP) discovered two vehicles at          again. OIG’s investigation revealed Larry Morris
the Port of Oakland that were identified as CARS         Trucking drivers’ records were falsified for the
trade-ins. In March 2011, OIG executed a search          purpose of concealing the number of hours driven.
warrant at Taylor’s place of business and obtained       In June 2012, Larry W. Morris, president and owner
evidence that Taylor falsely represented to NHTSA        of Larry Morris Trucking, entered a corporate guilty
and car dealerships that he had destroyed the            plea. As part of the plea agreement, the company
vehicles, as he had been paid to do, when in fact he     agreed to install and maintain a computerized
had sold the two cars and planned to export them         monitoring device on all trucks owned and
through a freight-forwarder.                             operated by the company.
This investigation was conducted jointly with CHP,       This investigation was conducted with
with NHTSA assistance.                                   assistance from the Federal Motor Carrier Safety
                                                         Administration (FMCSA).




20  |  Audits and Investigations
Investigations

October 12, 2012                                       October 16, 2012
NEW YORK CONSTRUCTION                                  MISSISSIPPI STATE EMPLOYEES
COMPANY PRESIDENT SENTENCED                            SENTENCED FOR FALSIFYING CDL
FOR PREVAILING WAGE FRAUD                              DOCUMENTS
SCHEME                                                 Retired Lieutenant Colonel Joseph L. Rigby,
Mohammad Azam Beig was sentenced in U.S.               Mississippi Department of Public Safety (DPS),
District Court, Brooklyn, NY, to serve 9 months        Highway Patrol , Director, Driver Services, and Rene
home confinement followed by 3 years supervised        Morris, former clerk, DPS, were sentenced in U.S.
release, ordered to forfeit $1,879,575, and pay a      District Court, Jackson, MS, for their involvement in
$500 special assessment.                               a commercial driver’s license (CDL) testing scheme.
                                                       Rigby was sentenced to 3 years probation and
In September 2007, Beig pleaded guilty to mail         fined $3,000. Morris was ordered to serve 2 years
fraud and obstruction of justice resulting from        probation and fined $1,000.
his participation in a scheme to defraud public
contracting agencies. While president of Takbeer       The investigation disclosed that Rigby, Morris,
Enterprises, a construction company, Beig required     and several Mississippi State troopers assisted
Takbeer laborers to kick back a portion of their       CDL applicants by creating false CDL test scores,
earnings, which resulted in the submittal of false     enabling applicants to obtain CDLs and operational
certified payrolls on federally funded contracts       hazardous materials and passenger endorsements
with DOT grantee agencies, such as the New York        without meeting the required minimum State and
Metropolitan Transportation Authority, the Port        Federal testing mandates. Additionally, troopers
Authority of New York & New Jersey, and the            altered CDL records to reduce speeding infractions
New York City School Construction Authority. In        to lesser offenses and altered judicial adjudications
addition, while under a cooperation agreement          of guilty on drivers’ records to prevent drivers
with the U.S. Attorney’s Office, Beig continued        from receiving judgments or license suspensions.
to commit crimes by paying some of his workers         OIG is currently working with FMCSA and DPS to
in cash and not reporting the wages to the             correct altered driver records identified during this
Internal Revenue Service, resulting in a tax loss of   investigation.
approximately $14,000.                                 This investigation was conducted jointly with the
This investigation was conducted jointly with IRS-CI   FBI and the Mississippi Bureau of Investigation,
and DOL Office of Inspector General.                   with FMCSA assistance.




                                                                Semiannual Report to Congress  |  21
Investigations

October 17, 2012                                         October 29, 2012
COMPANY OWNER PLEADS GUILTY                              GUAM COMPANY AND ITS
OF TRAFFICKING IN COUNTERFEIT                            PRESIDENT PLEAD GUILTY TO
AIRBAGS                                                  CHARGES RELATED TO A “BUY
Igor Borodin, owner of Krugger Auto, pleaded
                                                         AMERICA” FRAUD SCHEME ON AN
guilty in U.S. District Court, Charlotte, NC, to         ARRA FUNDED PROJECT
trafficking in counterfeit airbags and transporting
the airbags in violation of hazardous materials          Hubtec International Corporation and its president
regulations. In conjunction with his guilty plea,        and project manager, Young C. Kim, pleaded guilty
Borodin’s assets were seized pursuant to a criminal      in the District Court of Guam and Northern Mariana
forfeiture warrant. The forfeiture totaled over          Islands to false statements in connection with a
$1.7 million, including 99 counterfeit airbags from      highway project. Hubtec and Kim admitted devising
Borodin’s business, 1,514 counterfeit airbags from       a scheme to defraud the Government of Guam’s
his residence, $60,000 in cash, and the seizure of       Department of Public Works (DPW) and FHWA
his residence.                                           by falsely representing that they used U.S.-made
                                                         reinforcement steel bars for a federally funded
Borodin was previously indicted for his role in          project in Guam.
trafficking counterfeit airbags and illegally shipping
undeclared hazardous materials in air commerce. In       In January 2010, DPW awarded Hubtec a contract
testing the counterfeit airbags, NHTSA determined        for the reconstruction and rehabilitation of
that the airbags were volatile systems that, when        highway culverts. The contract—valued at $1.8
detonated, were capable of not deploying at all, or      million, with $1.4 million funded through ARRA—
expending shrapnel and causing fire, or both.            required compliance with Buy America Act
                                                         requirements that all steel and iron permanently
This investigation was conducted jointly with the        incorporated into a project be manufactured in the
Department of Homeland Security Investigations,          United States. OIG’s investigation determined that
and the North Carolina Division of Motor Vehicles,       Hubtec and Kim falsely represented that they used
Highway Patrol.                                          U.S.-made reinforcement steel bars for the project,
                                                         when in fact they had incorporated Korean-made
                                                         reinforcement steel bars, and committed fraud
                                                         through a billing scheme that over-reported the
                                                         costs of materials. OIG investigators determined




22  |  Audits and Investigations
Investigations

that Kim submitted inflated invoices to FHWA in the     identification plates of 80 K-Wall barriers that had
amount of $154,392. In its plea agreement, Hubtec       been manufactured previously, making it appear
has agreed to pay restitution of approximately          that the 80 barriers had been manufactured after
$150,000.                                               S&S received the required manufacturing and
                                                        production certification from FDOT.
OIG is conducting this investigation jointly with the
FBI, with FHWA assistance.                              This investigation was conducted jointly with the
                                                        FDOT Office of Inspector General.

December 1, 2012
                                                        December 17, 2012
FLORIDA CONTRACTOR SETTLES
CIVIL FALSE CLAIMS ON AN ARRA-                          THREE MASSACHUSETTS MEN
FUNDED PROJECT                                          SENTENCED FOR DBE FRAUD
S&S Precast, Inc., and its owner Jerry Shannon,         Dennis DeGrazia and David Hebert were sentenced
entered into a settlement agreement with the U.S.       in U.S. District Court, Boston, MA, for their roles in
Attorney’s Office, Fort Myers, FL, in connection        a conspiracy to defraud the U.S. Government in a
with a civil false claims investigation pertaining to   scheme to impede, impair, and obstruct DOT’s DBE
S&S’s production of concrete K-Wall barriers for use    program.
on a federally funded road construction project.        The Massachusetts Port Authority (Massport)
The agreement requires Shannon, on behalf of S&S,       awarded FAA-funded Residential Soundproofing
to pay the U.S. Government $50,000.                     Improvement Program contracts in excess of $2.5
In late 2009, APAC Southeast, Inc., entered into a      million to U.S. Window and Door Construction,
contract with the Florida DOT (FDOT) for a road         Inc., a company DeGrazia and Hebert partially
construction project on I-75 in Lee County, FL—a        owned. For approximately 10 years, DeGrazia and
project supported with FHWA funds provided              Hebert indicated that Robert Dickerson—sole
through ARRA. In April 2010, S&S entered into a         proprietor of Woodchuck’s Building and Home
rental subcontract with APAC to supply K-Wall           Center, a State-certified DBE—supplied windows
barriers for the project. The rental subcontract        and doors towards each contract’s DBE goal.
required the K-Wall barriers to be manufactured by      However, Dickerson served as a pass-through
S&S in accordance with FDOT manufacturing and           and did not actually supply materials, incur
production requirements. Shannon directed S&S           expenses, or perform work. Throughout this time,
employees to change the production date on the          companies that Hebert and DeGrazia worked




                                                                 Semiannual Report to Congress  |  23
Investigations

for or owned were awarded over $9.5 million in          approximately 5 percent as a “fee,” and relied on
FAA-funded residential soundproofing contracts.         Crossboro to perform the work. On September
Dickerson was paid a fee of up to 4 percent of the      11, 2012, Paletta pleaded guilty to a mail fraud
costs of materials for his role in the conspiracy.      conspiracy. As part of his plea agreement, Paletta
With Dickerson’s concurrence, the defendants            agreed to forfeit $23,813. On September 13, 2012,
submitted false documents to Massport to conceal        Crossboro agreed to a civil settlement of $355,164
Dickerson’s lack of activity and give the appearance    with the Southern District of New York to resolve a
that the DBE goal had been met.                         civil false claims action.

DeGrazia was sentenced to 30 days incarceration,        This case is being conducted jointly with the DOL
2 years supervised release, and a $20,000 fine.         Office of Inspector General, the Port Authority of
Hebert was sentenced to 2 years supervised release      New York & New Jersey Office of Inspector General,
and a $2,000 fine. Dickerson was sentenced on           and the New York City Department of Investigation.
December 18, 2012, to 30 days incarceration, 2 years
supervised release, and $10,000 fine.
                                                        February 13, 2013

January 10, 2013                                        FORMER DIRECTOR OF BROWARD
                                                        COUNTY PUBLIC WORKS
COMPANY OFFICIAL SENTENCED
                                                        DEPARTMENT, TWO FLORIDA
FOR HIS ROLE IN DBE FRAUD
                                                        CONTRACTORS, AND ANOTHER
Michael Paletta, President of Crossboro                 CHARGED WITH BRIBERY
Construction Contracting, was sentenced in U.S.
District Court in New York, NY, to 3 years probation,   On January 23, 2013, in U.S. District Court, Miami,
a $50,000 criminal fine, and 100 hours community        FL, Jihad El Eid, former Director of Broward County
service.                                                Traffic Engineering Division Department (BCTED),
                                                        and Wael El Eid were charged with bribery in
Between 1994 and March 2011, Paletta, on behalf
                                                        connection with programs receiving Federal
of Crossboro (a non-DBE), conspired with MS
                                                        funds, highway fraud, mail fraud, extortion, and
Construction (a DBE) to perform construction
                                                        conspiracy. Also charged in connection with this
work on various federally funded bridge projects
                                                        scheme were Anthoneel Allen, owner of Southeast
in Manhattan and other New York City boroughs
                                                        Underground Utilities, Corporation (SUU), and
where MS Construction was the purported
                                                        James Hashim, former Vice-President of SUU.
DBE subcontractor. MS Construction was paid
                                                        Allen and Hashim were also charged with DBE




24  |  Audits and Investigations
Investigations

violations. Hashim pleaded guilty on February           February 19, 2013
1, 2013, and Allen pleaded guilty on February 13,
2013, to charges of conspiracy to commit bribery in     MONTANA MAN SENTENCED FOR
programs receiving Federal funds, highway fraud,        MAKING FALSE STATEMENTS ON
mail fraud, extortion, and tax fraud.
                                                        ARRA FUNDED IDAHO BRIDGE
The investigation revealed that from fall 2006
                                                        PROJECT
through 2010, Allen and Hashim provided Jihad
El Eid, at his request, more than $150,000 in           Kip Harris, former lead superintendent at Sletten
cash; a 2003 Ford Taurus; and a job at SUU for          Construction, Granite Falls, MT, was sentenced in
Wael El Eid, Jihad’s relative. In return, Jihad El      U.S. District Court, Boise, ID, to 3 years probation
Eid allegedly helped SUU obtain work on multi-          and ordered to pay a $750 fine and a $100 special
million dollar projects initiated by BCTED—             assessment. Harris was indicted in September
part of a larger federally funded project. The          2012 for making false statements regarding the
investigation disclosed that Jihad El Eid assisted      quality of work Sletten performed on the U.S. 2
SUU’s overpayment of at least $3 million. In            Dover Bridge project near Coeur d’Alene, ID—a
addition, Allen, on behalf of SUU, filed a fraudulent   $21.6 million project funded by ARRA. Harris
application to have SUU certified as a DBE, resulting   directed laborers under his supervision to modify
in the award of approximately 25 fraudulent             nonconforming anchor bolts so they would
contracts and subcontracts to SUU in excess of $10      appear to Idaho Transportation Department (ITD)
million.                                                inspectors to conform to project plans, knowing
This investigation is being conducted jointly with      that the anchor bolts did not conform to the
the FBI and IRS-CI.                                     contract specifications.

Note: Indictments, informations, and criminal           ITD inspectors discovered the deficiencies during
complaints are only accusations by the Government.      a routine construction inspection of the new
All defendants are presumed innocent unless and         bridge’s piers. Inspectors found approximately
until proven guilty.                                    100 improperly installed bolts. FHWA and ITD had
                                                        bridge experts evaluate the safety risks that the
                                                        deficient anchor bolts posed to the bridge. Both
                                                        agencies determined that the consequences of
                                                        not discovering and repairing the non-confirming
                                                        anchor bolts would have had a minimal impact on
                                                        the structural integrity of the bridge. Sletten has
                                                        since made repairs to the bridge to correct the




                                                                 Semiannual Report to Congress  |  25
Investigations

deficiencies. FHWA suspended Harris in October           had applied for reimbursement of relocation
2011, and Sletten terminated his employment with         expenses, even though MLA had not incurred
the company shortly thereafter.                          any expenses. The investigation determined that
                                                         Pollard deposited the funds into her personal bank
This investigation is being conducted jointly with       account.
the FBI, with FHWA and ITD assistance.
                                                         This investigation was conducted jointly with the
                                                         FDOT Office of Inspector General.
February 20, 2013
FLORIDA BUSINESS OWNER                                   February 20, 2013
SENTENCED TO PROBATION FOR
                                                         FORMER ILLINOIS POLICE
FALSE CLAIMS
                                                         COMMANDER CHARGED WITH
Jonathan Jenkins, owner of MLA Furniture, was            MAKING FALSE STATEMENTS
sentenced in U.S. District Court, Orlando, FL, to
5 years probation, ordered to make restitution in        Timothy J. Veit, a former commander with the
the amount of $242,981, and fined $100 for his role      Des Plaines, IL, Police Department, was charged
in filing fraudulent claims for reimbursement of         in U.S. District Court, Chicago, IL, with making
moving and relocation expenses. On January 25,           false statements relating to a scheme to defraud a
2013, Tina Marie Pollard, a former FDOT employee,        NHTSA funded program.
pleaded guilty in U.S. District Court, Orlando, FL, to
conspiracy and money laundering for her role in the      From approximately 2009 through 2012, Veit
scheme.                                                  allegedly made false statements in reports that
                                                         concealed the police department’s failure to meet
As part of a plan to widen 20 miles of Interstate        the requirements of federally funded impaired
4, FDOT purchased property in 2006 that MLA              driving enforcement campaigns. Veit, project
Furniture rented in Orlando. The right-of-way            director for the police department, allegedly
property was procured with Federal and State             inflated DUI arrests that resulted in the department
grant funds. Pollard worked out of FDOT’s DeLand         receiving $132,893 in Federal reimbursement
office as a right-of-way agent whose job was to          for overtime compensation to Veit and other
help relocate people and businesses displaced by         police officers. As the project director, Veit was
transportation projects. In return for receiving         responsible for certifying departmental compliance
$30,000, Pollard conspired with MLA to process           with NHTSA’s participation requirements. Veit
fictitious claims representing that MLA Furniture        inflated the DUI arrests and provided false




26  |  Audits and Investigations
Investigations

information about blood alcohol content levels on      February 25, 2013
the reimbursement forms.
                                                       OWNER OF MINNESOTA TRUCKING
Note: Indictments, informations, and criminal
complaints are only accusations by the Government.     COMPANY SENTENCED FOR THEFT
All defendants are presumed innocent unless and
                                                       Gary Bauerly, owner and operator of WATAB
until proven guilty.
                                                       Hauling, was sentenced in Hennepin County District
                                                       Court, Minneapolis, MN, and ordered to pay $52,157
February 22, 2013                                      in restitution related to his guilty plea to theft
                                                       charges.
CHICAGO CONTRACTOR
                                                       This investigation determined that, from July
SENTENCED IN A DBE FRAUD                               through December 2007, Bauerly submitted
SCHEME                                                 fraudulent documents to obtain payments
                                                       as a subcontractor and employed a series of
Anthony Cappello was sentenced in U.S. District        schemes—including providing false payroll
Court, Chicago, IL, to 6 months home confinement,      reports to contractors and Government contract
24 months probation, and a $25,000 fine; and           administrators—to avoid paying prevailing
ordered to pay $169,076 in restitution for mail        wages, totaling approximately $52,000, owed to
fraud. In July 2012, Cappello admitted that            WATAB employees. Bauerly provided fraudulent
from approximately 1999 through May 2006,              information to general contractors and contract
he participated in a scheme to defraud the             administrators for federally funded municipal,
Government of more than $2.3 million in contracts      county, and State contracts. The contracts specified
with the Chicago Department of Aviation related        that employees were to be paid according to the
to the Women in Business Enterprise (WBE) and          prevailing wage rate in the area.
DBE programs. Cappello falsely represented that
his wife’s company, Stealth Group, Inc.—a certified    This investigation was conducted jointly with the
WBE/DBE—performed the work, when in fact               Minnesota Department of Transportation and the
Cappello’s company, Diamond Coring, performed          Hennepin County Attorney’s Office
the work on behalf of Stealth Group.

This case was conducted jointly with the FBI, DOL
Office of Inspector General, and the City of Chicago
Office of Inspector General.




                                                                Semiannual Report to Congress  |  27
Investigations

February 25, 2013                                      March 5, 2013
CONNECTICUT BUS COMPANY AND                            EIGHT CHARGED IN MOVING
OFFICE MANAGER PLEAD GUILTY                            COMPANY SCHEME IN CALIFORNIA
TO FALSIFICATION OF DRIVERS                            A grand jury in Santa Clara County, CA, charged
RECORDS                                                eight individuals who owned and/or were employed
                                                       by ASAP Relocations, Inc., San Jose, CA, for their
Wisla Express, LLC—a New Britain, CT, commercial       roles in a scheme to defraud customers who had
passenger carrier operating vans, mini-buses,          hired ASAP to move their household goods. The
and tour buses—pleaded guilty in U.S. District         individuals charged were Roni Hayon, ASAP owner
Court, Hartford, CT, in connection with its role       and Chief Executive Officer; Adii Therese Karter,
in presenting falsified documents to FMCSA in          Hayon’s wife; Wayne Allen, ASAP Sales Manager;
response to FMCSA’s demand for documents               Adalinda Reyna-Mendoza, ASAP Customer Service
during its 2010 inspection of Wisla. Wisla’s Office    and Dispatch Manager; Elazar Nisanov, ASAP
Manager, Dariusz Szteborowski, of Rocky Hill, CT,      Foreman; Moaz Kadesh, ASAP Foreman and
pleaded guilty on February 22, 2013, in connection     Office Manager; Ido Or, ASAP Foreman and Office
with the scheme.                                       Manager; and Noam Israeli, ASAP Foreman and
The investigation disclosed that Szteborowski          Office Manager. The charges include conspiracy to
submitted false and fraudulent drivers’ logs to        commit grand theft, extortion, money laundering,
FMCSA that he created, or caused others to             tax fraud, and filing false employment tax returns.
create, and maintained to make it appear that          OIG has participated in several operations in
Wisla had met FMCSA’s reporting requirements.          conjunction with investigations of household goods
Szteborowski and others working with and for him       moving companies with numerous complaints
and Wisla often assigned drivers to trips knowing      against them for holding customers’ goods hostage
that the drivers would be exceeding the regulated      until illegally inflated charges were paid. In January
limits of on-duty driving time. To hide these          2010, an OIG agent arranged for a move with ASAP
violations from FMCSA inspectors, Szteborowski         from Nevada to California and received a telephone
often instructed the drivers and other Wisla           quote of $1,461. After the goods were loaded, the
employees to record falsely in the logs that drivers   agent was informed that the move would cost
were off-duty during those times, then submitted       $3,138, more than twice the original quote. Of the
the falsified logs to FMCSA during its inspections.    $1,677 in overages, $900 was for packing materials.
The investigation was conducted with FMCSA             This investigation was conducted jointly with the
assistance.                                            Santa Clara District Attorney’s Office, Monterey




28  |  Audits and Investigations
Investigations

County District Attorney’s Office, the Alameda        March 21, 2013
County District Attorney’s Office, and the FBI.

Note: Indictments, informations, and criminal
                                                      PRESIDENT AND OWNER OF A NEW
complaints are only accusations by the Government.    YORK-BASED DBE CONTRACTOR
All defendants are presumed innocent unless and       PLEADS GUILTY
until proven guilty.
                                                      Yona Jimenez, aka “Yona J. Bocchino,” president
                                                      and owner of Global Marine Construction Supply
March 8, 2013                                         (GMCS), a certified DBE, pleaded guilty in U.S.
FORMER DALLAS COUNTY DEPUTY                           District Court, White Plains, NY, to a mail fraud
                                                      charge.
SENTENCED
                                                      On October 6, 2011, Jimenez was charged for
Johnny Quarles, former Dallas County Deputy           her role as a pass-through DBE purporting to
Sheriff, was sentenced in Dallas County Criminal      provide structural steel on the FHWA-funded
Court, Dallas, TX, in conjunction with his plea to    Cross Westchester Expressway Project. Between
tampering with Government records. Quarles was        approximately June 2006 and October 2009, the
sentenced to 3 years of community supervision         general contractor claimed that GMCS had been
and was ordered to pay a $2,500 fine, $240 in court   awarded a subcontract valued at over $6 million
costs, and $2,232 in community supervision fees.      to supply structural steel to reconstruct bridges,
Quarles was also ordered to surrender his Texas       although another company (a non-DBE) actually
police officer’s license.                             supplied the steel. The general contractor then
                                                      claimed credit for the services provided by GMCS
Quarles is one of three deputies who were
                                                      towards meeting its DBE goal. GMCS was paid
indicted in Dallas County for submitting overtime
                                                      approximately 1 percent of the subcontract value
reimbursement requests containing false
                                                      as a commission.
information as to the times worked and number
of traffic citations issued in 2009, 2010, and 2011   We are conducting this investigation jointly with
while working overtime under the Selective Traffic    the Metropolitan Transportation Authority of New
Enforcement Program, which is funded through          York Office of Inspector General, and the Port
a NHTSA grant. During this investigation, Dallas      Authority of New York & New Jersey Office of
County has repaid $214,030 in ineligible costs to     Inspector General.
NHTSA.

We are conducting this investigation jointly with
the Dallas County Sheriff’s Office, with assistance
from NHTSA and the Texas Department of
Transportation.




                                                               Semiannual Report to Congress  |  29
30  |  Audits and Investigations
                                                  IN FOCUS
                                                  COMBATING HOUSEHOLD GOODS FRAUD

                                                  E   ach year, approximately 4,000
                                                      interstate moving companies transport
                                                  the household goods (HHG) of 1.6 million
                                                                                                 investigations, and the resulting criminal
                                                                                                 prosecutions and sanctions, are strong
                                                                                                 deterrents to violators who consider civil
                                                  Americans. And each year, FMCSA                penalties simply a cost of doing business.
                                                  receives about 2,200 consumer complaints
                                                  regarding interstate movers. Some of           To remove unscrupulous HHG movers
                                                  these complaints involve egregious             before they victimize more American
                                                  offenses, such as holding goods hostage.       consumers, OIG’s Office of Investigations
                                                  Protecting consumers from these rogue          launched “Operation Boxed Up,” a
                                                  companies is an important part of OIG’s        proactive, cooperative initiative that
                                                  case work, and our investigations have         targets groups of interrelated carriers and
                                                  targeted suspect HHG brokers and carriers      brokers engaged in HHG fraud schemes. To
                                                  that demand significantly larger sums          formally kick off Operation Boxed Up, we
                                                  of money than originally quoted before         held a joint training session with FMCSA,
                                                  releasing the consumer’s goods. To carry       emphasizing the importance of OIG-FMSCA
                                                  out this extortion, brokers and carriers       cooperation to target those who prey on
                                                  engage in other illegal activities that        the trust of unsuspecting consumers.
                                                  include conspiracy, wire fraud, mail fraud,    By analyzing databases from FMCSA’s
                                                  money laundering, and falsification of bills   HHG regulatory program, we identified
                                                  of lading and shipment weight documents.       the consumer complaints on the most
                                                  FMCSA is responsible for the civil             egregious actions by HHG carriers and
                                                  enforcement of the consumer protection         brokers. To date, we have opened over
                                                  and economic regulations governing             a dozen investigations with hundreds
                                                  interstate HHG transportation. While           of victims defrauded out of nearly three
                                                  FMCSA has taken a number of actions to         quarters of a million dollars, executed
                                                  protect consumers—including requiring          10 search warrants, and made 7 arrests.
                                                  moving companies to provide customers          Further, nine individuals have been indicted
                                                  with FMCSA’s booklet on consumer rights        in connection with these fraud schemes.
                                                  and responsibilities when they move—OIG
“THE MOVING TRUCK” BY JONAH WEST / CC BY-NC 2.0




                                                                                                                Semiannual Report to Congress  |  31
   One noteworthy Operation Boxed Up investigation        couple a $1,340 estimate. After the contents of the
   led to the indictment of the owners and two            couple’s home had been loaded on the truck and
   employees of two moving companies on charges           driven away, the husband was told that the cost of
   associated with hostage HHG schemes designed           the move would now be around $7,400—a more
   to unjustly enrich the companies’ owners. These        than 500-percent increase. Included in the goods
   schemes involved HHG brokers (or companies             being held hostage was the wife’s wheelchair,
   representing themselves as HHG brokers) luring         which the owners of the carrier refused to release,
   customers by offering extremely low moving             saying “you are not getting it, period” or any of
   estimates, transferring the brokered loads to the      the other property until the extortionate revised
   unscrupulous carrier or one of its affiliates, and     cost of the move was paid. We later found out that
   taking possession of customers’ goods. The movers      the owner of the moving company was using the
   then significantly increased the moving costs and      victim’s computer and his flat screen television in
   withheld delivery until the customers paid the         the business.
   fraudulently inflated prices. In addition, customers
   were threatened that if they refused to pay, their     In connection with Operation Boxed Up, OIG’s
   goods would be auctioned. Our investigations           Office of Investigations launched a “Wanted
   of these complicit companies have identified           Fugitives” Web page to elicit credible tips from
   36 victims to date, with an approximate loss of        the public to locate and bring fugitives from OIG
   $126,000.                                              cases to justice. Currently, these fugitives have
                                                          outstanding warrants for their arrest in connection
   In one transaction, an elderly couple relocating       with HHG moving fraud. We encourage anyone with
   from Colorado to Nevada because of the wife’s          knowledge of their whereabouts to contact OIG at
   poor health contacted a trucking company found         800-424-9071, rather than attempt to apprehend
   on the Internet. The company—which acted as an         someone they suspect may be a fugitive.
   HHG broker but was not registered with FMCSA
   as either an HHG broker or carrier—provided the




32  |  In Focus
OIG LAUNCHED A “WANTED FUGITIVES” WEB PAGE TO ELICIT TIPS FROM THE PUBLIC
TO LOCATE AND BRING FUGITIVES TO JUSTICE




                                                Semiannual Report to Congress  |  33
           OIG’S RAIL, MARITIME, HAZMAT TRANSPORT, AND ECONOMIC ANALYSIS
           WORK EMPHASIZES SAFETY AND ECONOMY THROUGH AUDITS OF RAIL,
           MARITIME, PIPELINES, AND HAZARDOUS MATERIALS SAFETY PROGRAMS,
           AS WELL AS ECONOMIC ANALYSIS AND SURFACE TRANSPORTATION
           FINANCING, AND THROUGH INVESTIGATIONS OF ILLEGAL PACKAGING AND
           TRANSPORTATION OF HAZMAT AND CRIMINAL VIOLATIONS OF PIPELINE
           SAFETY LAWS AND REGULATIONS




34  |  Audits and Investigations
                                                            AUDITS AND INVESTIGATIONS
                                                            RAIL, MARITIME, HAZMAT TRANSPORT, AND
                                                            ECONOMIC ANALYSIS
                                                            Audits

                                                            November 1, 2012                                      achieve their intended benefits. The Agency
                                                                                                                  generally concurred with our recommendations
                                                            FRA’S REQUIREMENTS FOR                                and indicated that it is committed to addressing
                                                            HIGH-SPEED RAIL STAKEHOLDER                           the issue of further guidance if more HSIPR funding
                                                                                                                  becomes available. We conducted this review as
                                                            AGREEMENTS MITIGATED RISK BUT                         part of our ongoing ARRA oversight work.
                                                            DELAYED SOME PROJECT BENEFITS
                                                            Self-initiated                                        December 6, 2012

                                                            The Federal Railroad Administration’s (FRA) High-     A GRANTS MANAGEMENT
                                                            Speed Intercity Passenger Rail (HSIPR) grant          FRAMEWORK AND STAKEHOLDER
                                                            program represents an unprecedented Federal
                                                                                                                  AGREEMENTS ARE KEY TO FULLY
                                                            investment in the U.S. intercity passenger rail
                                                            system. In the 3 years since it established HSIPR,    IMPLEMENTING FRA’S HIGH-
                                                            FRA has awarded and obligated over $10 billion        SPEED INTERCITY PASSENGER RAIL
                                                            in grant funds—$8 billion of which were funded
                                                            through ARRA.
                                                                                                                  PROGRAM
                                                            While FRA established stakeholder service outcome     Testimony before the House Committee on
                                                            agreements for long-term corridor projects before     Transportation and Infrastructure
                                                            obligating funds, most long-term project grantees
                                                                                                                  The Assistant Inspector General for Rail, Maritime,
                                                            lack the maintenance and construction agreements
                                                                                                                  Hazmat Transport, and Economic Analysis testified
“THE LINEUP - STORAGE TRACKS” BY STEVE WILSON / CC BY 2.0




                                                            required to receive funds and start work. Continued
                                                                                                                  on FRA’s implementation of its High Speed Intercity
                                                            delays in completing these agreements threaten
                                                                                                                  Passenger Rail Program. Specifically, he discussed
                                                            HSIPR’s long-term goals because obligated funds
                                                                                                                  the progress FRA has made since the program
                                                            will sit idle instead of being made available for
                                                                                                                  was created and expanded the Agency’s role from
                                                            projects that have completed agreements and
                                                                                                                  primarily promulgating railroad safety regulations
                                                            a greater likelihood of success. Further, FRA’s
                                                                                                                  to overseeing $10.1 billion in grant funds. The
                                                            initial focus on long-term projects delayed short-
                                                                                                                  Assistant Inspector General also described the
                                                            term project obligations and the determination of
                                                                                                                  challenges FRA faces as it works to establish a
                                                            requirements for short-term project agreements.
                                                                                                                  grants management framework that ensures
                                                            We recommended that FRA develop the policies          effective program implementation and the integrity
                                                            and guidance needed to ensure HSIPR projects




                                                                                                                           Semiannual Report to Congress  |  35
Audits

March 27, 2013                                          APT’s highly customized design will make it costly
                                                        to maintain, raising concerns regarding its long-
AMTRAK’S NEW COST                                       term utility. Finally, the methodology FRA plans to
ACCOUNTING SYSTEM IS A                                  use to determine the cost savings from a route’s
                                                        discontinuation has significant limitations that
SIGNIFICANT IMPROVEMENT, BUT                            would substantially reduce the value of savings
CONCERNS OVER PRECISION AND                             estimates provided to Amtrak and Congress. We
                                                        made several recommendations to FRA to improve
LONG-TERM VIABILITY REMAIN                              the precision of Amtrak’s financial performance
Required by Section 203(b) of PRIIA                     reporting. While FRA concurred with our
                                                        recommendations and provided planned actions
Amtrak’s new cost accounting system—Amtrak              and target dates for completion, FRA stated that
Performance Tracking (APT)—captures and reports         its avoidable cost methodology fulfills the purpose
Amtrak’s financial performance by route, line of        of providing an order of magnitude estimate of
business, and major activity, as required by the        changes to Amtrak’s expenses from the elimination
Passenger Rail Investment and Improvement Act           of a single route. We question FRA’s assertion
(PRIIA). While APT is a significant improvement         and, therefore, have asked FRA to reconsider its
over its predecessor, implementation problems           response to this recommendation.
and heavy reliance on cost allocation have affected
the timeliness and precision of its reports. Further,




36  |  Audits and Investigations
Investigations

October 2, 2012                                           December 18, 2012
STOCKTON MAN FINED $100,000                               FORMER HEAD OF OTTUMWA
FOR UNLAWFULLY REFILLING AND                              TRANSIT AUTHORITY INDICTED
TRANSPORTING COMPRESSED                                   Pamela Ward, former Transit Administrator
NATURAL GAS CYLINDERS                                     for Ottumwa Transit Authority (OTA) and 10-15
                                                          Transit, Ottumwa, IA, was indicted by a grand jury
James Richard Giles, a former owner of Clean              in U.S. District Court, Des Moines, IA, for making
Fuels LLC, in Stockton, CA, was sentenced in U.S.         false statements. Between 2006 and 2010, Ward
District Court, Sacramento, CA, to serve 5 years of       allegedly submitted false ridership data to the Iowa
supervised release and ordered to pay $100,000            Department of Transportation and 10-15 Transit
in fines for the willful and unlawful refilling of a      to fraudulently secure additional Federal Transit
compressed natural gas cylinder that was overdue          Administration (FTA) grant funding for those
for its 5-year requalification and then offering it for   agencies.
transportation.
                                                          An Iowa State Auditor’s Office uncovered several
The highly pressurized cylinders store various            alleged violations by OTA, including overstated
kinds of gases, some of which can be extremely            passenger counts on documents submitted to
hazardous. OIG began investigating the case               the State and FTA; records destruction and failure
following a complaint from a former employee              to retain documents as required; payments to
of Clean Fuels—a company that transported                 Ward Construction, a company owned by the OTA
compressed natural gas—who alleged that Giles             Director’s husband; and the use of OTA facilities
was refilling metal cylinders with compressed             for oil changes, car washing, maintenance, and
natural gas that were well beyond their required          detailing of personal vehicles.
5-year requalification dates. Our investigation
determined that Giles transported 38 refilled             Note: Indictments, informations, and criminal
cylinders of compressed natural gas—all of which          complaints are only accusations by the Government.
had requalification dates that had expired—from           All defendants are presumed innocent unless and
Stockton to Pacific Gas and Electric’s natural gas        until proven guilty.
refilling station in San Joaquin, CA.

OIG conducted this investigation with significant
assistance from the Pipeline Hazardous Materials
Safety Administration (PHMSA).




                                                                   Semiannual Report to Congress  |  37
Investigations

January 17, 2013                                      avoid being detected. He also admitted that he
                                                      knew the shipments of fireworks would eventually
HAWAII RESIDENT SENTENCED FOR                         be shipped to Hawaii by way of ground and air
ILLEGALLY SHIPPING FIREWORKS                          transport.

                                                      This investigation was conducted with substantial
Patrick Kamehameha Powers, a resident of
                                                      assistance from FAA.
Kailua, HI, was sentenced in U.S. District Court,
Los Angeles, CA, for his role in the transport
of undeclared fireworks from Ft Collins, CO, to       March 15, 2013
Ontario, CA, and from Ontario to Honolulu, HI.
Powers failed to mark the packages that contained     WIFE OF FORMER VIRGINIA
the fireworks with the proper shipping name or        RAILWAY EXPRESS EMPLOYEE
identification number for the hazardous materials
inside. Powers was sentenced to serve 1 year          SENTENCED FOR HELPING
probation and ordered to pay a $100 special           HUSBAND CONCEAL RECEIPT OF
assessment.                                           OVER $200,000 IN BRIBES
In January 2009, FAA’s Hazardous Materials Branch,
                                                      Angela Jannell was sentenced in U.S. District Court,
Los Angeles/Honolulu Field Office advised that in
                                                      Alexandria, VA, to 6 months home confinement,
November 2008, several individuals, one of whom
                                                      1 year of supervised release, and 40 hours of
was Powers, illegally shipped fireworks by UPS to
                                                      community service for concealing that her husband,
an address in Hilo, HI. Fourteen packages falsely
                                                      Kevin Wirth Jannell, took more than $200,000
labeled as household goods were shipped to an
                                                      in bribes to ensure a Virginia Railway Express
address in Hilo from Office Depots in Wyoming and
                                                      (VRE) subcontractor would be retained by VRE.
Colorado. The packages were each transported
                                                      In January 2013, Kevin Jannell, a former facilities
by UPS ground and eventually transported to
                                                      manager for VRE, was sentenced in U.S. District
Honolulu by air carrier. A UPS driver in Honolulu
                                                      Court, Alexandria, VA, to 24 months incarceration
discovered the illegal fireworks when one of the
                                                      followed by 2 years supervised release for
packages broke open. Powers admitted that he
                                                      accepting the bribes.
illegally shipped the fireworks to Hawaii for one
of his former real estate clients, using fictitious   The investigation revealed that from 2003 through
shipping names and addresses on paperwork             March 2012, Kevin Jannell agreed to receive up
associated with the shipments, and shipped the        to $4,000 a month in return for giving favorable
fireworks from three different Office Depots to       evaluations that would ensure an individual and




38  |  Audits and Investigations
the individual’s company would be retained as a
subcontractor for VRE. He concealed the bribes
by creating a fraudulent company and sending
monthly invoices from the company to the
subcontractor, falsely billing the subcontractor for
services that were never rendered. Angela Jannell
had signed the paperwork creating the fraudulent
company for which she was the president.

This investigation was conducted jointly with
the FBI.




                                                       Semiannual Report to Congress  |  39
           OIG’S FINANCIAL AND INFORMATION TECHNOLOGY WORK EMPHASIZES
           ECONOMY AND EFFICIENCY THROUGH AUDITS OF FINANCIAL STATEMENTS,
           INFORMATION TECHNOLOGY SECURITY, AND OVERSIGHT OF SINGLE AUDITS
           OF NON-FEDERAL GRANTEES EXPENDING DOT FUNDS




40  |  Audits and Investigations
                                              AUDITS AND INVESTIGATIONS
                                              FINANCIAL AND INFORMATION TECHNOLOGY
                                              Audits

                                              November 2, 2012                                        We conducted a quality control review of an audit
                                                                                                      performed by Leon Snead & Company, P.C., on
                                              QUALITY CONTROL REVIEW OF                               the National Transportation Safety Board’s (NTSB)
                                              THE SAINT LAWRENCE SEAWAY                               financial statements for fiscal years 2012 and 2011.
                                                                                                      Leon Snead & Company, P.C., under contract to
                                              DEVELOPMENT CORPORATION                                 OIG, issued a clean (unqualified) audit opinion on
                                              AUDITED FINANCIAL STATEMENTS                            NTSB’s financial statements. Its report did not
                                                                                                      include any reportable internal control deficiencies
                                              FOR FISCAL YEARS 2012 AND 2011                          or instances of reportable noncompliance with laws
                                              Required by the Government Corporation Control Act      and regulations tested.

                                              We conducted a quality control review of an audit       November 14, 2012
                                              performed by Chiampou Travis Besaw & Kershner
                                              LLP, on the Saint Lawrence Seaway Development           QUALITY CONTROL REVIEW
                                              Corporation’s (SLSDC) financial statements for
                                              fiscal years 2012 and 2011. Chiampou Travis Besaw       OF FAA’S AUDITED FINANCIAL
                                              & Kershner LLP, under contract to SLSDC, issued         STATEMENTS FOR FISCAL YEARS
                                              a clean (unqualified) audit opinion on SLSDC’s
                                                                                                      2012 AND 2011
                                              financial statements. Its report did not include any
                                              reportable internal control deficiencies or instances   Required by the Office of Management and Budget,
                                              of reportable noncompliance with laws and               Pursuant to the Chief Financial Officer’s Act, as
                                              regulations tested.                                     Amended

                                              November 8, 2012                                        We conducted a quality control review of an
                                                                                                      audit performed by KPMG LLP on FAA’s financial
                                              QUALITY CONTROL REVIEW                                  statements for fiscal years 2012 and 2011. KPMG LLP,
“TABLET USE 2” BY EBAYINK / CC BY-NC-ND 2.0




                                                                                                      under contract to OIG, issued a clean (unqualified)
                                              OF NTSB’S AUDITED FINANCIAL                             audit opinion on FAA’s financial statements. KPMG
                                              STATEMENTS FOR FISCAL YEARS                             LLP’s report included two significant deficiencies in
                                                                                                      internal control over financial reporting. There were
                                              2012 AND 2011                                           no instances of reportable noncompliance with
                                              Required by the Accountability of Tax Dollars Act       laws and regulations tested.




                                                                                                               Semiannual Report to Congress  |  41
Audits

November 14, 2012                                   We conducted a quality control review of an audit
                                                    performed by KPMG LLP on DOT’s consolidated
FISMA 2012: ONGOING                                 financial statements for fiscal years 2012 and 2011.
WEAKNESSES IMPEDE DOT’S                             KPMG LLP, under contract to OIG, issued a clean
                                                    (unqualified) audit opinion on DOT’s consolidated
PROGRESS TOWARD EFFECTIVE IT                        financial statements. KPMG LLP’s report included
SECURITY                                            one material weakness and two significant
                                                    deficiencies in internal control over financial
Required by the Federal Information Security        reporting. In addition, KPMG LLP’s report included
Management Act of 2002 (FISMA)                      two instances of reportable noncompliance with
                                                    laws and regulations tested.
DOT has improved its security controls, including
enhancing the Department’s cyber security policy
and guidance. However, the Department has not       November 16, 2012
met Federal information technology (IT) security
requirements. As a result, the Department’s         QUALITY CONTROL REVIEW FOR
information systems remain vulnerable to serious    CONTROLS OVER THE ENTERPRISE
security threats and risks due to continued
                                                    SERVICES CENTER
deficiencies in DOT’s information security
procedures, controls, and remediation measures.     Required by Office of Management and Budget
                                                    Memorandum M-08-24
November 15, 2012                                   We conducted a quality control review of KPMG
QUALITY CONTROL REVIEW OF                           LLP’s attestation engagement pertaining to the
                                                    Enterprise Services Center’s description of its
DOT’S AUDITED CONSOLIDATED                          system and the suitability of the controls’ design
FINANCIAL STATEMENTS FOR FISCAL                     and operating effectiveness. The Department
                                                    determined that our report contains sensitive
YEARS 2012 AND 2011                                 security information; accordingly, we are not
Required by the Chief Financial Officer’s Act, as   publicly disclosing our results.
Amended




42  |  Audits and Investigations
Audits

December 7, 2012                                       December 19, 2012
QUALITY CONTROL REVIEW OF                              FAA HAS NOT ADEQUATELY
SINGLE AUDIT ON THE ORANGE                             IMPLEMENTED SECURITY
COUNTY TRANSPORTATION                                  REQUIREMENTS FOR ITS EN ROUTE
AUTHORITY                                              AUTOMATION MODERNIZATION
Self-initiated
                                                       SYSTEM
                                                       Self-initiated
We conducted a quality control review of a single
audit performed by Vavrinek, Trine, Day & Co.,         FAA plans to replace its 30-year-old En Route Host
LLP (VTD) on the Orange County Transportation          computer and backup system—as well as more
Authority’s use of DOT grants for the fiscal           than 800 controller workstations at FAA’s Air Route
year ending June 30, 2011. During this period,         Traffic Control Centers across the country—with
the authority expended approximately $100              the En Route Automation Modernization (ERAM)
million from DOT’s major grant programs. VTD           Program. The program will facilitate aircraft
determined that the Federal Transit Cluster was a      separation and improve flight plan processing
major program. We determined that VTD’s work           with flexible routing options; provide safety alerts
was acceptable with deficiencies, and therefore        to prevent collisions and congestion; and enable
generally met the requirements of generally            controllers to better handle unplanned events. We
accepted Government auditing standards; the            assessed the effectiveness of ERAM’s information
Single Audit Act of 1984, as amended; and Office       security controls, including whether or not FAA is
of Management and Budget (OMB) Circular                identifying security risks and properly mitigating
A-133. We found nothing to indicate that VTD’s         them. The Department determined that our report
opinion on the Authority’s reports on internal         contains sensitive security information; accordingly,
control and compliance were inappropriate or           we are not publicly disclosing our results.
unreliable. However, we identified deficiencies in
audit documentation that VTD needs to correct
in future audits. Based on VTD’s explanations, we
determined that these deficiencies did not alter the
overall results of the audit.




                                                                 Semiannual Report to Congress  |  43
Audits

February 1, 2013                                         February 1, 2013
INSPECTOR GENERAL REVIEW OF                              INSPECTOR GENERAL REVIEW OF
FISCAL YEAR 2012 DRUG CONTROL                            FISCAL YEAR 2012 DRUG CONTROL
FUNDS AND PERFORMANCE                                    FUNDS AND PERFORMANCE
SUMMARY REPORTING, FEDERAL                               SUMMARY REPORTING, NATIONAL
AVIATION ADMINISTRATION                                  HIGHWAY TRAFFIC SAFETY
Required by the Office of National Drug Control Policy
                                                         ADMINISTRATION
(ONDCP) Circular                                         Required by the ONDCP Circular
Review procedures were performed on FAA’s fiscal         Review Procedures were performed on NHTSA’s
year 2012 Drug Control Obligation and Performance        fiscal year 2012 Drug Control Obligation and
Summary Reports and management’s assertions.             Performance Summary Report and management’s
Our review processes were limited to inquiries           assertions. Our review processes were limited to
and analytical procedures appropriate for an             inquiries and analytical procedures appropriate
attestation review based on the criteria specified in    for an attestation review based upon the criteria
ONDCP’s Circular. Specifically, we tested selected       specified in the Circular. Specifically, we tested
accounting internal control procedures to ensure         selected accounting internal control procedures to
drug control funds were properly identified in           ensure drug control funds were properly identified
the accounting system. We also reviewed FAA’s            in the accounting system. We also reviewed
internal controls for performance measures to            NHTSA’s internal controls for performance
gain an understanding of how the measures were           measures to gain an understanding of how the
developed. During our review, no information came        measures were developed. During our review,
to our attention that the accompanying FAA fiscal        no information came to our attention that the
year 2012 Drug Control Obligation Summary and            accompanying NHTSA fiscal year 2012 Drug Control
Performance Summary reports were not presented           Obligation Summary and Performance Summary
in conformity with the ONDCP Circular.                   reports were not presented in conformity with
                                                         ONDCP’s Circular.




44  |  Audits and Investigations
Audits                                                 Investigations

March 14, 2013                                         November 15, 2012
DOT’S FISCAL YEAR 2012 IMPROPER                        FORMER SAINT LAWRENCE SEAWAY
PAYMENT REPORTING GENERALLY                            DEVELOPMENT CORPORATION
COMPLIES WITH IPERA                                    EMPLOYEE SENTENCED IN A
Required by the Improper Payments Elimination and      WORKER’S COMPENSATION FRAUD
Recovery Act of 2010                                   SCHEME
In July 2010, President Obama signed the               Thomas Schneller, a millwright and welder
Improper Payments Elimination and Recovery             formerly employed by the Saint Lawrence Seaway
Act (IPERA)—which amended the Improper                 Development Corporation (SLSDC), was sentenced
Payments Information Act of 2002—to encourage          in U.S. District Court, Syracuse, NY, to 6 months
the elimination of payment error, waste, fraud,        home confinement, 36 months probation, 100
and abuse in Federal programs. IPERA requires          hours community service, payment of $84,987 in
improper payment rates of less than 10 percent at      restitution to DOL, and a $100 court assessment.
Federal programs. It also requires Federal agencies
to test annually for improper payments in their        In July 2012, Schneller pleaded guilty to fraud
programs and to publish reports on their findings      involving Federal worker’s compensation benefits.
in their Annual Financial Reports. IPERA calls         Schneller claimed an on-the-job injury in February
for inspectors general to review their agencies’       2004 but continued to work at his private welding
compliance with IPERA and to submit reports to         business, AKJ Marine (established about a week
the heads of their agencies. We found that DOT         after his purported injury), while receiving Federal
both accurately reported improper payment              worker’s compensation benefits. Schneller failed
information in its fiscal year 2012 Annual Financial   to disclose this outside source of income on Office
Report and complied with IPERA, with some              of Worker’s Compensation Program certification
exceptions. We made two recommendations to             forms.
assist the Department in its IPERA reporting.
                                                       This investigation was conducted jointly with the
                                                       DOL Office of Inspector General.




                                                                Semiannual Report to Congress  |  45
           OIG’S ACQUISITION AND PROCUREMENT WORK EMPHASIZES ECONOMY
           AND EFFICIENCY THROUGH AUDITS OF THE DEPARTMENT’S ACQUISITIONS,
           CONTRACTS, AND FINANCIAL ASSISTANCE AGREEMENTS, AND THROUGH
           INVESTIGATIONS OF FALSE STATEMENTS AND CLAIMS, BRIBERY, AND
           CONFLICTS OF INTEREST




46  |  Audits and Investigations
                                                              AUDITS AND INVESTIGATIONS
                                                              ACQUISITION AND PROCUREMENT
                                                              Audits

                                                              In addition to directing its own audits, OIG’s Office of Acquisition and Procurement partners with
                                                              other OIG offices to provide acquisition expertise and audit work on a broad and cross-cutting
                                                              range of reports related to our aviation; highway and transit; rail, maritime, and hazmat transport;
                                                              and information technology work. Leveraging OIG’s acquisition expertise across all audit groups
                                                              ensures consistent and thorough reviews of acquisition matters throughout the Department
                                                              and with its grantees. Our comprehensive approach focuses on the strategic significance of
                                                              promoting effective oversight of the Department’s acquisitions, contracts, and financial assistance
                                                              arrangements.

                                                              November 1, 2012                                     As an independent public body subject to few
                                                                                                                   Federal or State laws, MWAA must rely on the
                                                              MWAA’S WEAK POLICIES AND                             strength of its policies and processes to ensure
                                                              PROCEDURES HAVE LED TO                               credibility in its management of two of the Nation’s
                                                                                                                   largest airports and a multibillion-dollar public
                                                              QUESTIONABLE PROCUREMENT                             transit construction project.
                                                              PRACTICES, MISMANAGEMENT,
                                                                                                                   In response to our May 15, 2012, interim letter
                                                              AND A LACK OF OVERALL                                and audit work, MWAA took action to improve
                                                              ACCOUNTABILITY                                       its accountability, transparency, and governance,
                                                                                                                   such as approving new travel and ethics policies
                                                              Requested by Congressmen Frank R. Wolf and Tom       for employees and its Board of Directors. However,
“BUSINESS CHART SHOWING SUCCESS” BY SALFALKO / CC BY-NC 2.0




                                                              Latham                                               several management weaknesses remain.

                                                              Established through the Metropolitan Washington      • First, MWAA’s contracting policies and practices
                                                              Airports Act of 1982, the Metropolitan Washington      are insufficient to ensure compliance with
                                                              Airports Authority (MWAA) operates the federally       the Airports Act and the lease agreement.
                                                              owned Washington Dulles International and Ronald       Ineffective contract management and oversight
                                                              Reagan Washington National airports under a            and inadequate procurement integrity policies
                                                              lease agreement with DOT. More recently, MWAA          further compromise contract awards and
                                                              assumed responsibility for the Dulles Corridor         administration.
                                                              Metrorail Project, with a $3.1 billion budget
                                                                                                                   • Second, MWAA’s code of ethics for its
                                                              for Phase 1—$900 million of which is a Federal
                                                                                                                     employees and its related policies and
                                                              investment—and cost estimates of $2.7 billion for
                                                                                                                     procedures have lacked the rigor needed
                                                              Phase 2.




                                                                                                                            Semiannual Report to Congress  |  47
Audits

  to ensure credibility and the integrity of       March 27, 2013
  management and employee decisions.
                                                   IMPROVEMENTS TO DOT’S
• Third, MWAA’s human resources practices
  lack oversight and accountability, resulting     GOVERNANCE PROCESSES ARE
  in employees being hired and compensated         NEEDED TO ENHANCE OVERSIGHT
  without job descriptions, competition, pay
                                                   OF MAJOR IT INVESTMENTS
  setting reviews, or completed background
  checks.                                          Self-initiated
We made 12 recommendations and 30 specific sub-
                                                   For fiscal year 2012, DOT’s major IT investment
recommendations to DOT’s Office of the Secretary
                                                   portfolio was just over $2.2 billion—94 percent
(OST) for improving MWAA’s management policies
                                                   of which funds important aviation modernization
and processes. OST responded that it has been
                                                   programs, including NextGen, a multibillion-dollar
working with MWAA to ensure that it swiftly
                                                   effort to modernize the U.S. air traffic control
adopts needed reforms.
                                                   system.

                                                   However, since 2005, FAA has experienced cost
                                                   overruns, schedule delays, or both on 7 of its 14
                                                   major air traffic control IT programs, including 1 that
                                                   exceeded original cost estimates by $2 billion and
                                                   was delayed by 14 years.




48  |  Audits and Investigations
Despite these weaknesses, DOT has not developed
a comprehensive management framework for
its major IT investments, as required by Office of
Management and Budget (OMB) requirements
and the DOT Investment Review Board’s charter.
While FAA’s Joint Resources Council (JRC) has
a comprehensive framework for investment
governance, the Agency does not always follow
JRC’s approval and oversight processes. These
shortfalls limit DOT’s and FAA’s ability to effectively
manage major IT acquisitions and make well-
informed investment management decisions.

We made eight recommendations to improve
DOT’s and FAA’s oversight of major IT
investments. The Department concurred with all
eight recommendations and stated that it has
already implemented corrective actions for two
recommendations, as of March 12, 2013. For the
other six recommendations DOT provided sufficient
planned actions with reasonable target dates.




                                                          Semiannual Report to Congress  |  49
50   |   Audits and Investigations
                                                                              IN FOCUS
                                                                              OVERSEEING MWAA’S GOVERNANCE

                                                                              S   ince its creation, the Metropolitan
                                                                                  Washington Airports Authority
                                                                              (MWAA) and its Board of Directors have
                                                                                                                           Fairfax counties, regarding our preliminary
                                                                                                                           observations on MWAA’s management.
                                                                                                                           We noted that, as an independent public
                                                                              made substantial improvements to Ronald      body subject to few Federal and State
                                                                              Reagan Washington National and Dulles        laws, MWAA must rely on the strength
                                                                              International—two major airports in          of its policies and processes to ensure
                                                                              the Washington metropolitan area that        credibility in its management. We found,
                                                                              MWAA operates under a lease agreement        however, that MWAA’s oversight and
                                                                              with DOT. MWAA is also responsible for       internal policies and procedures related
                                                                              constructing the Dulles Corridor Metrorail   to contracting, ethics, travel, and
                                                                              Project—a multibillion-dollar effort to      transparency were insufficient to ensure
                                                                              expand Metrorail service in Northern         fiduciary and ethical responsibility and
                                                                              Virginia and provide easier access to        accountability.
                                                                              Dulles Airport. However, weaknesses in
                                                                              MWAA’s governance over its operations        These findings—along with an August
                                                                              prompted us to include oversight of key      2012 letter to MWAA from the Secretary of
                                                                              transportation assets, including those       Transportation, the Governors of Maryland
                                                                              governed by MWAA, as a top management        and Virginia, and the Mayor of the District
                                                                              challenge for the Department.                of Columbia—compelled MWAA to make
                                                                                                                           immediate reforms. Notably, MWAA
                                                                              In 2011, Congressmen Frank R. Wolf and       terminated contracts with former Board
                                                                              Tom Latham requested that we review          members, approved a new travel policy
                                                                              MWAA’s management policies and               and new codes of ethics for employees
                                                                              processes. The Congressmen stressed that     and the Board, and revised the Board’s
                                                                              MWAA’s accountability and transparency       bylaws and Freedom of Information Policy.
                                                                              are important to ensure the success          In addition, the DOT Secretary appointed
“TAKEOFF FROM DCA VIEWED FROM HAINS POINT” BY MR. T IN DC / CC BY-NC-ND 2.0




                                                                              of the Dulles Metrorail Project. In May      an Accountability Officer to monitor
                                                                              2012, we provided an interim letter          and report on any reform efforts at the
                                                                              to the Congressmen and briefed key           Authority.
                                                                              stakeholders, including Loudoun and




                                                                                                                                          Semiannual Report to Congress  |  51
Despite these positive actions, significant             We made 12 recommendations with 30 subparts to
weaknesses in MWAA’s governance remained.               the Office of the Secretary to promote integrity and
In November 2012, we reported that MWAA’s               accountability in the Authority’s management and
lack of internal controls created a culture that        governance. We also recommended that the Office
allowed questionable contracting practices              of the Secretary consider developing and adopting
by staff as well as its Board of Directors and          enforcement mechanisms to ensure that these
senior officials—including initiating work before       actions were followed.
contract award, awarding sole source and limited
competition contracts without proper justification,     Since the publication of our report, MWAA has
and providing non-public information that gives         reiterated its commitment to reform its policies and
potential contractors an unfair advantage in            procedures and improve its accountability through
competition. MWAA’s code of ethics and related          additional actions. For example, MWAA has
policies and procedures had similarly been              •	 fully implemented its formal ethics policy and
insufficient to detect violations of anti-nepotism         procedures for Board members and MWAA
and gift provisions and identify potential conflicts       employees, provided training under the new
of interest. In addition, the lack of a formal policy      ethic codes, and developed procedures to
for filling vacancies and creating new positions           oversee and enforce the codes;
allowed senior officials to place candidates into
new or existing positions without job descriptions,     •	 further revised its travel policy to enhance the
competition, or completed background checks.               definition of reasonable lodging expenses and
Finally, MWAA’s policies and processes did not             establish guidelines for entertaining business
ensure accountability and transparency for                 contacts, including spending thresholds and
activities conducted by its Board of Directors.            prohibited items such as alcohol;




52  |  In Focus
•	 begun to revamp its human resources policies     the success and sustainability of its major
   and procedures to ensure competitive hiring      transportation assets. Considering the impact these
   and compensation practices; and                  assets can have both locally and nationally, the
                                                    Department’s commitment to oversight remains
•	 revised its Contracting Manual to address some   critical. While work remains to restore public
   of our recommendations.                          trust in the integrity of MWAA’s governance, our
MWAA serves as an important example of the          efforts and those of the Office of the Secretary
challenges DOT faces as it works to ensure          demonstrate that increased oversight can result in
                                                    significant and needed reforms.




                                                             Semiannual Report to Congress  |  53
           THE OFFICE OF INSPECTOR GENERAL CONDUCTS AUDITS AND
           INVESTIGATIONS OF DEPARTMENTWIDE ISSUES THAT ARE EITHER
           SELF-INITIATED OR IN RESPONSE TO REQUESTS FROM CONGRESS AND
           THE DEPARTMENT




54  |  Audits and Investigations
                                                                                      AUDITS AND INVESTIGATIONS
                                                                                      DEPARTMENTWIDE ISSUES
                                                                                      Audits

                                                                                      November 15, 2012                                      and effectively implementing new safety
                                                                                                                                             requirements;
                                                                                      TOP MANAGEMENT CHALLENGES
                                                                                                                                          •	 Maximizing surface infrastructure investments
                                                                                      FOR FISCAL YEAR 2013                                   with effective program oversight and execution
                                                                                                                                             of new legislative requirements;
                                                                                      Required by the Reports Consolidation Act of 2000
                                                                                      (P.L. 106-531) and OMB Circular A-136               •	 Adequately overseeing administration of high
                                                                                                                                             speed intercity passenger rail grant funds;
                                                                                      On November 15, 2012, we issued our annual report
                                                                                      on the top management challenges facing the         •	 Strengthening financial management over
                                                                                      Department in fiscal year 2013. The nine issues        grants to better use funds, create jobs, and
                                                                                      comprising this year’s report are:                     improve infrastructure;

                                                                                      •	 Ensuring that the Next Generation Air            •	 Ensuring effective management of DOT’s
                                                                                         Transportation System advances safety and air       acquisitions to maximize value and program
                                                                                         travel;                                             performance; and

                                                                                      •	 Enhancing FAA’s oversight and use of data to     •	 Managing and securing information systems to
“T2010 09 16 - 4759-4761 - WASHINGTON DC - USDOT” BY ANDREW BOSSI / CC BY-NC-SA 2.0




                                                                                         identify and mitigate safety risks;                 efficiently modernize technology infrastructure
                                                                                                                                             and protect sensitive data from compromise.
                                                                                      •	 Overseeing administration of key
                                                                                         transportation assets to ensure their success    This report was included in the Department’s
                                                                                         and sustainability;                              Annual Financial Report, as required by law.

                                                                                      •	 Strengthening existing surface safety programs




                                                                                                                                                   Semiannual Report to Congress  |  55
Audits

November 16, 2012                                        December 21, 2012
OBSERVATIONS ON THE                                      LETTER TO CHAIRMAN ISSA AND
METROPOLITAN WASHINGTON                                  RANKING MEMBER CUMMINGS
AIRPORTS AUTHORITY’S                                     ON OIG’S OPEN AUDIT
GOVERNANCE                                               RECOMMENDATIONS
Testimony before the House Transportation and            Requested by Chairman Darrell Issa and Ranking
Infrastructure Committee                                 Member Elijah Cummings, House Committee on
                                                         Oversight and Government Reform
The Inspector General testified on the deficiencies
in MWAA’s governance detailed in our                     The Committee requested that we provide
November 1, 2012, report. Specifically, he discussed     a summary of our 10 highest priority open
MWAA’s contract award and procurement                    recommendations—5 short-term and 5 long-term—
practices, code of ethics for employees, hiring and      to improve agency efficiency and reduce waste.
compensation practices, and Board of Director            As of December 10, 2012, we identified a total of
activities. The Inspector General also described         637 open recommendations, which were included
actions that MWAA has taken to improve its               in 217 audit reports issued between September
accountability and transparency in response to our       2004 and November 2012. We considered several
ongoing concerns. However, he noted that further         criteria in identifying the open recommendations
actions are needed to fully ensure fiduciary and         as the highest priorities, including their impact
ethical responsibility and restore public trust in the   on safety, economy, or efficiency; documented
soundness of MWAA’s current and future activities.       vulnerabilities; dollar implications; and the ability
                                                         of the Department to effect change in the related
                                                         programs or areas.




56  |  Audits and Investigations
Audits

March 5, 2013                                         March 14, 2013
TOP TEN OIG RECOMMENDATIONS                           TOP MANAGEMENT CHALLENGES
FOR THE U.S. DEPARTMENT OF                            FACING THE DEPARTMENT OF
TRANSPORTATION                                        TRANSPORTATION
Testimony before the House Committee on Oversight     Testimony before the House Subcommittee on
and Government Reform                                 Transportation, Housing and Urban Development,
                                                      and Related Agencies
The Inspector General testified on the Office
of Inspector General’s highest priority open          The Inspector General testified on the top
recommendations for the Department of                 management challenges facing DOT, focusing
Transportation. The Inspector General focused         on three cross-cutting areas: (1) enhancing
on how these open recommendations will impact         aviation and surface safety, (2) ensuring effective
the Department’s ability to (1) ensure effective      stewardship of the Department’s resources,
stewardship of the Department’s resources, (2)        and (3) effectively implementing transportation
effectively implement transportation infrastructure   infrastructure programs.
programs while protecting investments in these
programs, and (3) enhance aviation and surface
safety.




                                                               Semiannual Report to Congress  |  57
58   |   In Focus
                                                       IN FOCUS
                                                       TRACKING OIG RECOMMENDATIONS

                                                       E   ach year, we recommend hundreds
                                                           of actions aimed at improving the
                                                       conduct of the Department’s programs
                                                                                                       and Ranking Member of the House
                                                                                                       Committee on Oversight and Government
                                                                                                       Reform requested that we provide a
                                                       and operations. For this reporting period       summary of our 10 highest priority open
                                                       alone, we made 170 recommendations—17           recommendations—5 short-term and 5
                                                       of which relate to questioned costs and         long-term. The recommendations we
                                                       funds to be put to better use and 153 of        identified were made in 10 separate reports
                                                       which identify opportunities for increased      between January 2010 and October 2012.
                                                       safety, economy, or efficiency.
                                                                                                       The highest priority open short-term
                                                       The Department and its agencies                 recommendations cut across the
                                                       frequently concur with our recommended          Department and have implications for its
                                                       actions, and work with us to ensure             number one priority—safety—as well as
                                                       recommendations are implemented                 its mission to safeguard taxpayer dollars.
                                                       in a timely manner. Some, however,              With regard to safety, we recommended
                                                       remain open—that is, the Department             that FAA collect and analyze information
                                                       or an agency has yet to fully implement         on pilot domicile and commuting to better
                                                       proposed actions or to provide us               target solutions to reduce pilot fatigue—a
                                                       with supporting documentation on                longstanding concern that has been
                                                       their implementation. In some cases,            linked to air-related fatalities. Originally,
                                                       recommendations remain open because             the Agency agreed to complete a scan
                                                       the Department or agency does not concur        of available data on pilot commuting
                                                       with our recommended actions.                   and determine whether additional data
                                                                                                       could offer significant safety benefits by
                                                       As required by law, we report semiannually      February 2013. However, in March 2013,
                                                       on the status of open recommendations.          FAA cited a study on flight attendant
                                                       Congress also periodically asks us to           commuting and stated that collecting
                                                       report on open recommendations that             and analyzing data on pilot commuting
                                                       we identify as the highest priority. In         was not warranted because pilots have
                                                       making this determination, we consider          an obligation to be fit for duty. We are
                                                       several criteria, including impact on safety,   evaluating FAA’s response, but at this time,
                                                       economy, or efficiency; documented
“CAPITOL BUILDING” BY ANDY WITHERS / CC BY-NC-ND 2.0




                                                                                                       the recommendation remains open. We
                                                       vulnerabilities; dollar implications; and       also recommended that FMCSA publish
                                                       the ability of the Department to effect         a final rule on passenger carrier leasing
                                                       change. Most recently, the Chairman             with requirements comparable to those




                                                                                                                      Semiannual Report to Congress  |  59
for property carriers—a recommendation similar           •	 We also recommended that FAA establish an
to one made by NTSB following its investigation             integrated master schedule for implementing
of a fatal bus crash in 2008. NTSB determined that          the six programs that will provide NextGen’s
the bus company was, in effect, shielded from               foundational technologies and infrastructure.
FMCSA oversight by its lease agreement with                 Currently, FAA spends almost $1 billion
another company. FMCSA concurred with our                   annually to develop and implement NextGen,
recommendation and plans to issue a proposed                and without a master schedule, FAA will be
rule this summer.                                           challenged to fully address program risks, make
                                                            informed cost and schedule tradeoffs, and
The remaining high-priority short-term open                 prioritize delivery of capabilities.
recommendations aim to minimize fraud, waste,
and abuse:                                               •	 The final short-term highest risk open
                                                            recommendation relates to Federal and State
•	 We reported that releasing idle funds from               responsibilities to oversee about $40 billion
   undelivered orders under inactive grants                 in highway funds provided annually to States.
   could free up approximately $1.4 billion for             While FHWA fulfilled its statutory mandate
   DOT agencies to use for other transportation             to enter into stewardship and oversight
   infrastructure improvement projects and create           agreements with each State, the agreements
   jobs. Accordingly, we recommended that                   do not consistently reflect Federal requirements
   quarterly inactive project reviews be conducted          or program risks and priorities that FHWA has
   to ascertain that inactive obligations—with              identified and communicated to its Division
   particular attention to those that are tied to           Offices. Accordingly, we recommended that
   stagnant or closed projects—are liquidated in            DOT implement a coordinated and effective
   a timely manner. In July 2012, DOT initiated a           data-driven, risk-based approach for Division
   60-day, resource-intensive remediation effort            Offices and Directors of Field Services to review
   to identify and deobligate inactive undelivered          agreements annually and make timely revisions.
   orders, resulting in the liquidation of $2.1
   billion. For fiscal year 2013, DOT plans to issue a   The highest priority long-term recommendations—
   policy requiring agencies to perform quarterly        those to be implemented over the next several
   reviews and annual certifications of obligation       years—focus on needed controls over some of the
   balances and train personnel to handle them.          Department’s largest assets and programs. DOT
   Implementing this recommendation will help            spends approximately $3 billion each year on its IT
   the Department begin correcting a persistent,         systems. Despite this significant investment—one
   systemic problem with unliquidated obligations.       of the largest in the Federal Government—DOT
                                                         lacks an enterprise architecture (EA) to realize




60  |  In Focus
cost savings, reduce duplicative systems, align IT    we recommended that FRA complete a National
investments with its mission, and effectively spend   Rail Plan that includes measurable performance
information security funds. DOT concurred with our    goals and clear stakeholder roles. FRA currently
recommendation to develop or revise its EA policy     plans to complete the plan by June 2014.
and procedures to address these weaknesses, and
plans to develop an overarching policy by May 2013.   We also recommended that FHWA report regularly
However, DOT indicated that it would need funding     on the effectiveness of States’ efforts to improve
to implement the policy and would commit to a         the condition of deficient bridges, which FHWA
completion date when funding becomes available.       estimates at more than 140,000 or about one-
                                                      quarter of the Nation’s bridges. Given the limited
DOT also concurred with our recommendation to         funding to address these deficiencies, we have
implement the use of personal identity verification   emphasized over the past 2 decades the need
(PIV) cards as the primary authentication             to improve the quality of inspection data and
mechanism for all DOT employees and contractors.      to implement data-driven, risk-based oversight
The Office of Management and Budget required          to prioritize bridge safety risks. DOT agreed to
all Federal personnel to use PIV cards by 2012 to     develop a new template by the end of 2013 to
log on to agency computers for multifactor user       report on States’ efforts to address deficient
identity authentication. As of June 2012, only 42     bridges and to take steps by 2015 to enhance the
percent of DOT’s systems were enabled for user        level of detail reported on bridge conditions.
logon with PIVs, and only 7 percent used PIV for
identity authentication. DOT designated PIV card      Finally, we recommended that FAA develop and
deployment for authentication as one of its top       regularly update comprehensive cost estimates
cybersecurity priorities for fiscal year 2013, and    for its multibillion dollar effort to realign and
plans to implement our recommendation by fiscal       consolidate the Nation’s network of manned air
year 2016.                                            traffic control facilities into centralized locations—a
                                                      critical step in implementing NextGen and replacing
One of the Department’s most ambitious and            the aging air traffic infrastructure. FAA concurred
costly mandates is to develop a national high-speed   with our recommendation and plans to provide
rail system. The Passenger Rail Investment and        a detailed cost estimate for the first integrated
Improvement Act of 2008 calls for FRA to develop      facility in the New York metropolitan area by
a National Rail Plan to ensure that its $10 billion   December 31, 2014. To completely implement our
high-speed intercity passenger rail grant program     recommendation, FAA will also need to produce
supports national policy goals. Because delays in     detailed financial information for Congress and
establishing the plan could result in FRA investing   other stakeholders regarding its longer term plans
billions of dollars in Federal grant funds without    for other facilities.
assurance that these efforts support these goals,




                                                                Semiannual Report to Congress  |  61
          OIG’S OTHER ACCOMPLISHMENTS AND CONTRIBUTIONS ARE THOSE THAT
          EXTEND BEYOND THE LEGAL REPORTING REQUIREMENTS OF THE INSPECTOR
          GENERAL ACT




62  |  Other Accomplishments
                                                       OTHER ACCOMPLISHMENTS

                                                       October 17, 2012                                        February 6, 2013
                                                       PARTICIPATION ON TEAMMATE                               PRESENTATION ON OIG’S EMPLOYEE
                                                       USERS FORUM PANEL                                       INTEGRITY INVESTIGATIONS
                                                       A Project Manager from OIG’s Office of Audit            An Assistant Special Agent in Charge from OIG’s
                                                       Planning, Policy, and Technical Support spoke at        Seattle, WA, Investigations Office spoke at
                                                       the TeamMate Users Forum in San Antonio, TX,            FHWA’s Western Federal Lands Highway Division,
                                                       as part of a panel on “Integrating Government           Vancouver, WA, on OIG’s employee integrity
                                                       Sector Business Processes and Methodologies into        investigations. Over 100 personnel from the
                                                       the TeamMate Suite.” Users shared experiences           Federal Lands Highway Division attended.
                                                       implementing and using TeamMate in their
                                                       departments. The forum was attended by over 700
                                                       attendees from around the world.                        February 6, 2013
                                                                                                               REDUCED THE UNCERTAINTY IN
                                                       November 15, 2012                                       THE HIGHWAY TRUST FUND’S
                                                       BRIEFING ON FRAUD AWARENESS                             SOLVENCY
                                                       An Assistant Special Agent in Charge from OIG’s         In response to recommendations we made in our
                                                       Seattle, WA, Investigations Office briefed the Idaho    March 2012 report on the management of the
                                                       FHWA, State DOT, and Association of Contractors         Highway Trust Fund’s (HTF) solvency, FHWA and
                                                       in Boise, ID, on contract and grant fraud indicators.   FTA developed protocols for periodically assessing
                                                       The audience included FHWA engineers and                their outlay rate tables—the mechanism they use
                                                       inspectors, Idaho DOT engineers and inspectors,         to project HTF outlays—to identify deviations
                                                                                                               in outlay trends and adjust shortfall projections
“PROJECTOR LENS” BY MICHAEL PORTER / CC BY-NC-ND 2.0




                                                       DBE certification specialists, and members of the
                                                       Idaho General Contractors Association.                  accordingly. Based on their initial review, FHWA
                                                                                                               and FTA adjusted their rate tables to account for
                                                                                                               recent deviations in outlay trends resulting from
                                                       December 4, 2012                                        incremental ARRA funding and ongoing fiscal
                                                                                                               problems confronting States and transit agencies.
                                                       PRESENTATION ON OIG’S MOTOR                             As a result, changes to the outlay rate tables
                                                       CARRIER SAFETY AUDITS                                   reduced fiscal year 2013 outlay projections by a
                                                                                                               combined $600 million. While not a direct cost
                                                       The Assistant Inspector General for Highway and         saving, this reduction allows for more accurate
                                                       Transit Audits spoke at a meeting of the Motor          predictions of the magnitude and timing of future
                                                       Carrier Safety Advisory Committee in Alexandria,        outlays and, more importantly, the timing of future
                                                       VA, on OIG’s audit process and recent and planned       HTF cash shortfalls.
                                                       work impacting motor carrier safety issues. The 19
                                                       committee members, appointed by FMCSA, include
                                                       representatives of the motor carrier industry,
                                                       safety advocates, and safety enforcement officials.


                                                                                                                        Semiannual Report to Congress  |  63
64  |  Work Planned and In Progress
WORK PLANNED AND IN PROGRESS
This section describes OIG’s work planned or in progress for April 1, 2013, through September 30,
2013. The work focuses on the Department’s Strategic Plan and responds to requests by Congress
and Administration officials. We take into account the need to support DOT’s most critical programs
and to ensure that the Department’s resources are protected from fraud, waste, and abuse.


AVIATION
In Progress

FAA’S CONTROLLER FACILITY                               FAA’S TERMINAL AUTOMATION
TRAINING PROGRAM                                        MODERNIZATION PROGRAM
FAA plans to hire and train nearly 11,000 new           FAA plans to invest about $1 billion through 2018
air traffic controllers through fiscal year 2020        to modernize terminal automation systems that
to offset impending retirements. Training and           controllers rely on to manage air traffic near
certifying such a large number of newly hired           airports. This effort is key to replacing aging
controllers pose significant challenges for FAA.        equipment and achieving FAA’s NextGen goals. Our
Over the past 2 years, average training times for       audit objectives are to determine whether FAA’s
controllers assigned to terminal facilities increased   (1) acquisition strategy for terminal modernization
significantly, primarily due to the high number of      effectively addresses technological and operational
new hires who have no prior air traffic experience.     risks and (2) terminal modernization efforts are
In addition, some facilities have experienced           compatible with key NextGen programs and
high training attrition rates. For example, at the      schedules.
New York Terminal Radar Approach Control, 77
percent of new controllers who completed facility       FAA’S AVIATION SAFETY INSPECTOR
training between fiscal years 2008 and 2010 did not     AND ANALYST STAFFING
successfully complete controller certification. Given
these challenges, our audit objectives are to (1)       The Airline Safety and FAA Extension Act of 2010
identify steps FAA has taken to improve the facility    directed OIG to review staffing levels for FAA’s
training program for air traffic controllers and (2)    aviation safety inspectors and operations research
assess the effectiveness of those steps in improving    analysts. The 2009 Colgan crash raised concerns
training times, staffing composition, and training      about the experience and numbers of inspectors
completion rates.                                       and analysts assigned to oversee air carriers and
                                                        review inspection data. Accordingly, our audit
                                                        objectives are to (1) determine the status of
                                                        FAA’s implementation of its new staffing model,
                                                        (2) evaluate the process FAA uses to assess the




                                                                 Semiannual Report to Congress  |  65
In Progress

number and level of experience of inspectors and        CHALLENGES AND RISKS IN THE
analysts assigned to each part 121 carrier, and (3)
evaluate FAA’s use of other surveillance processes
                                                        IMPLEMENTATION OF AUTOMATIC
to supplement the inspections performed by              DEPENDENT SURVEILLANCE-
assigned oversight offices.                             BROADCAST (ADS-B)
AVIATION SAFETY INFORMATION                             At the request of the Chairman and Ranking
ANALYSIS AND SHARING (ASIAS)                            Minority Member of the House Committee on
                                                        Appropriations, Subcommittee on Transportation,
SYSTEM                                                  Housing and Urban Development, and
                                                        Related Agencies, and as required by the FAA
The Airline Safety and FAA Extension Act of 2010
                                                        Modernization and Reform Act of 2012, we are
directed OIG to assess the feasibility of FAA
                                                        conducting an annual review of ADS-B—a key
establishing a comprehensive repository containing
                                                        NextGen component, which is expected to leverage
data from multiple sources that is accessible by
                                                        satellite-based technology, aircraft avionics, and
aviation safety inspectors and analysts. FAA’s
                                                        ground-based systems to provide information to
ASIAS system contains data from numerous safety
                                                        pilots and air traffic controllers on the position of
databases, including the Aviation Safety Action
                                                        aircraft in all phases of flight. Our audit objective
Program and other voluntary safety reporting
                                                        is to assess FAA’s progress with mitigating risks
programs. In the past, access to such data has been
                                                        and addressing challenges associated with
limited. Our audit objectives are to assess FAA’s (1)
                                                        implementing ADS-B.
progress in implementing ASIAS, (2) process and
plan for allowing system access at both field and
headquarters levels and (3) use of ASIAS data to
assist in commercial air carrier safety oversight.




66  |  Work Planned and In Progress
In Progress

UNDERLYING CAUSES FOR LIMITED                        FAA’S EFFORTS TO STREAMLINE
PROGRESS WITH NEXTGEN                                ITS PROCESS FOR IMPLEMENTING
Since the NextGen effort began in 2005, OIG has
                                                     NEW PERFORMANCE-BASED FLIGHT
repeatedly reported on cost and schedule risks,      PROCEDURES
as well as the operational and management
challenges FAA faces in implementing NextGen.        In 2009, RTCA Task Force 5—a joint FAA-industry
These longstanding concerns prompted OIG             task force—identified near-term performance-
to identify the development and execution            based flight procedure priorities for 2012
of NextGen as one of the Department’s top            through 2018. Key task force recommendations
management challenges. During recent hearings        focus on (1) developing flight procedures that
on NextGen, Congress also indicated its growing      provide benefits to airspace users and rely on
concern with NextGen’s lack of progress. At the      equipment already onboard aircraft and (2)
request of the Chairman and Ranking Members          resolving longstanding approval and certification
of the House Committee on Transportation and         issues for new flight procedures. In response
Infrastructure and its Subcommittee on Aviation,     to the task force’s recommendations, FAA
we are (1) assessing FAA’s progress with meeting     performed a study (the NAV Lean Project) that
key milestones for achieving NextGen capabilities,   identified 21 needed improvements. However,
(2) examining possible underlying causes for FAA’s   these improvements could take as long as 5
limited progress with advancing NextGen overall,     years to complete, and new flight procedures
and (3) reviewing FAA’s recent reorganization and    are not yet yielding expected benefits—raising
other efforts to improve the management and          congressional and industry concern. At the request
execution of NextGen initiatives.                    of the Chairmen of the House Transportation and
                                                     Infrastructure Committee and its Subcommittee
                                                     on Aviation, we are assessing FAA’s progress on
                                                     (1) providing new high-value performance-based
                                                     navigation procedures and (2) implementing the
                                                     improvements recommended by the NAV Lean
                                                     Project.




                                                              Semiannual Report to Congress  |  67
In Progress

AIR TRAFFIC CONTROLLER                                      Modernization and Reform Act of 2012 included
                                                            a mandate that OIG examine FAA’s oversight of
SCHEDULING PRACTICES                                        VDRP. Accordingly, our audit objectives are to
                                                            determine whether FAA (1) ensures that air carrier
The FAA Modernization and Reform Act of 2012
                                                            disclosure reports meet FAA requirements prior
requires OIG to review FAA’s air traffic controller
                                                            to acceptance into VDRP and (2) evaluates the
scheduling practices, mandating that the review
                                                            effectiveness of air carrier corrective actions prior
include an assessment of FAA’s process for
                                                            to closing the reports.
determining controller schedules. Accordingly, our
audit objectives are to (1) determine the impact
that controller scheduling practices have on safety
                                                            AIR CARRIER FLIGHT DELAYS,
and air traffic controller performance, (2) evaluate        CANCELLATIONS, AND ASSOCIATED
the cost effectiveness of controller scheduling             CAUSES
practices, and (3) assess air traffic control facilities’
compliance with FAA scheduling policies.                    The FAA Modernization and Reform Act of 2012
                                                            directed OIG to update its July 2000 report on air
FAA’S OVERSIGHT OF THE                                      carrier flight delays and cancellations. As part of
VOLUNTARY DISCLOSURE                                        this effort, we are assessing FAA’s and the Bureau
                                                            of Transportation Statistics’ progress on addressing
REPORTING PROGRAM                                           our prior report findings and recommendations.
                                                            We are also (1) comparing recent flight delay and
In 2006, FAA established the Voluntary Disclosure
                                                            cancellation trends with prior problem periods,
Reporting Program (VDRP), which allows air
                                                            (2) examining air carrier scheduling practices
carriers to voluntarily report adverse safety issues
                                                            and their relative impact in causing flight delays
to the Agency in exchange for immunity from FAA
                                                            and cancellations, and (3) assessing FAA’s use of
enforcement actions. While this program provides
                                                            benchmarks to measure capacity and monitor over-
an important opportunity to identify and mitigate
                                                            scheduling at the Nation’s busiest airports.
safety issues that might not otherwise come to
FAA’s attention, it also requires close monitoring to
ensure that the program is not misused. The FAA




68  |  Work Planned and In Progress
In Progress

FAA’S OVERSIGHT OF ARRA                                 FAA’S POLICY REGARDING USE OF
EXPENDITURES                                            UNMANNED AERIAL SYSTEMS (UAS)
ARRA required Inspectors General to conduct             At the request of the Chairmen and Ranking
audits of ARRA-funded projects to ensure                Members of the Senate Committee on Commerce,
the effective and efficient use of ARRA funds.          Science, and Transportation and its Subcommittee
Accordingly, OIG is reviewing FAA’s oversight of        on Aviation Operations, Safety, and Security,
ARRA grants for airports to determine whether           as well as the Chairmen and Ranking Members
the Agency prevented improper payments and              of the House Transportation and Infrastructure
ensured ARRA funds were used only for authorized        Committee and its Subcommittee on Aviation, we
purposes.                                               are conducting an audit to assess FAA’s (1) efforts
                                                        to mitigate safety risks for integrating UAS into
LOS ANGELES INTERNATIONAL                               the National Airspace System and (2) progress and
AIRPORT REVENUE USE                                     challenges in meeting the UAS requirements of the
                                                        FAA Modernization and Reform Act of 2012.
FAA regulations and Federal statutes require airport
revenues to be used for the airport’s operating and     AIR TRAFFIC CONTROLLER
capital costs. Using any airport-generated funds for    PRODUCTIVITY
non-airport purposes constitutes illegal revenue
diversion and is grounds for FAA remediation—           Since 2000, air traffic operations have dropped
including withholding of grants. Our office has         by 21 percent while controller staffing levels
received requests by several Members of Congress        have remained essentially unchanged, resulting
to review allegations of revenue diversion at Los       in controller productivity dropping by nearly 23
Angeles International Airport. Accordingly, our         percent over this time frame. FAA introduced
audit objective is to evaluate FAA’s oversight of the   several initiatives to improve operational
airport’s revenue use.                                  productivity and encourage efficiency within
                                                        the controller workforce. However, it is unclear
                                                        whether this initial controller workforce plan
                                                        is achieving the promised efficiencies. We are
                                                        reviewing operational data to determine (1)
                                                        controller productivity and factors that may impact
                                                        controller productivity and (2) whether FAA’s
                                                        productivity and efficiency initiatives are producing
                                                        the desired outcomes.




                                                                 Semiannual Report to Congress  |  69
In Progress

FAA’S SURFACE SURVEILLANCE                            FAA OVERSIGHT OF EUROPEAN
PROGRAMS FOR RUNWAY SAFETY                            UNION REPAIR STATIONS
Preventing aircraft ground collisions and runway      By May 2013, FAA is expected to complete its
incursions has been on NTSB’s “Most Wanted            transfer of direct oversight of FAA-certificated
Transportation Safety Improvements List” since        repair stations in the European Union to the
1990. NTSB recommended that FAA require ground        national aviation authorities of those countries.
movement safety systems at airports to prevent        These authorities will be responsible for monitoring
collisions and provide direct warnings to flight      over 400 FAA-certificated repair stations located
crews. In response, FAA designed Airport Surface      in 18 countries. Our objectives are to (1) determine
Detection Equipment- Model X (ASDE-X). We are         FAA’s effectiveness in ensuring repair stations
assessing FAA’s progress in integrating ASDE-X with   under the Aviation Safety Agreement between
other runway safety technologies, such as Runway      the United States and the European Union comply
Status Lights and ADS-B.                              with Agency requirements and (2) evaluate the
                                                      effectiveness of FAA’s process for transferring
PROGRESS IN MEETING NEXTGEN                           oversight to the national aviation authorities.
PROVISIONS OF THE FAA
                                                      DOT OVERSIGHT AND
MODERNIZATION AND REFORM ACT
                                                      ENFORCEMENT OF COMPLIANCE
OF 2012
                                                      WITH REQUIREMENTS FOR ON-
FAA plans to spend $2.4 billion on NextGen            BOARD FLIGHT DELAYS
programs during fiscal years 2013 through 2017.
FAA’s Modernization and Reform Act of 2012            OIG’s work over the past decade has consistently
includes provisions that are intended to help         shown that strong oversight of airline passenger
FAA better manage NextGen and advance new             protections is needed. We recommended several
technologies. At the request of the Chairmen          actions that DOT has taken to strengthen the
of the House Transportation and Infrastructure        accountability, enforcement, and the protection
Committee and its Subcommittee on Aviation, we        afforded to air travelers. We are assessing the
are reviewing FAA’s progress and challenges in        effectiveness of DOT’s oversight and enforcement
meeting the NextGen provisions prescribed in Title    of airlines’ and airports’ compliance with
II of the Act.                                        requirements relating to long, on-board flight
                                                      delays.




70  |  Work Planned and In Progress
Planned

REVIEW OF THE FAA-NATCA                               FAA’S OVERSIGHT AND
COLLECTIVE BARGAINING                                 ENFORCEMENT OF SHIPMENTS OF
AGREEMENT EXTENSION                                   HAZARDOUS MATERIALS BY AIR
Effective October 1, 2012, FAA and the National       Each day, about 50,000 shippers of hazardous
Air Traffic Controllers Association (NATCA)           materials offer 200 U.S. and 200 foreign air carriers
agreed to extend their original 3-year collective     hazmat packages for shipment by air. However,
bargaining agreement through July 1, 2016. The        comprehensive statistics are not collected on the
extended agreement includes a memorandum of           aggregate number of declared and authorized
understanding covering pay. We plan to conduct an     hazmat packages or tonnage shipped within the
audit to evaluate (1) the accuracy and completeness   United States. Adding to the uncertainty is the
of FAA’s cost estimate of the extension, (2) FAA’s    unknown number of undeclared, unauthorized
internal controls over the agreement, and (3) the     hazmat shipments by air on any given day. We plan
costs and benefits of the extension.                  to assess FAA’s oversight and enforcement of air
                                                      carriers’ compliance with hazmat regulations.
FAA’S DATA COMMUNICATIONS
                                                      FAA’S IMPLEMENTATION OF TRAFFIC
DataComm, a NextGen transformational program,
is expected to provide digital communications
                                                      FLOW MANAGEMENT
with data link capability for routine pilot-          In response to recommendations made by
controller communications. Airspace users have        a Government-industry task force, FAA is
raised significant concerns about DataComm’s          implementing Traffic Flow Management (TFM) to
development, and industry and FAA have not            strategically plan and manage air traffic demand
reached consensus on how to implement the             and ensure efficient traffic flow in NAS. We plan to
technology. We plan to conduct an audit to (1)        conduct an audit to determine (1) the current status
determine whether FAA’s acquisition strategy          of FAA’s TFM modernization efforts to integrate
for DataComm addresses the cost, schedule, and        new NextGen capabilities for more flexible aircraft
performance risks associated with FAA’s NextGen       routing, such as trajectory based operations, and
plans and goals and (2) identify any difficulties     (2) how FAA is using TFM to manage the flow of air
or uncertainties in integrating new DataComm          traffic in the NAS based on capacity and demand.
services with existing or planned automation
platforms, such as the Standard Terminal
Automation Replacement System and ERAM.




                                                               Semiannual Report to Congress  |  71
72  |  Work Planned and In Progress
                                                                                                            HIGHWAY AND TRANSIT

                                                                                                            In Progress

                                                                                                            FEDERAL LANDS HIGHWAY’S TRIBAL                         NEW YORK CITY MAJOR PROJECTS:
                                                                                                            TRANSPORTATION PROGRAM                                 EAST SIDE ACCESS PROJECT
                                                                                                            FHWA’s Tribal Transportation Program (formerly,        FTA has committed to investing almost $2.7 billion
                                                                                                            the Indian Reservation Roads Program) provides         for the East Side Access project, one of the largest
                                                                                                            financial resources and technical assistance for       and most complex transit projects in the country.
                                                                                                            public roads that service the needs of Indian lands.   Though it is in the construction phase, the East
                                                                                                            For fiscal years 2005 through 2011, the program        Side Access project has experienced billions in
                                                                                                            received $3.17 billion, including $310 million         cost increases and years of schedule delays. Our
                                                                                                            provided by ARRA. We are assessing whether             objectives are to evaluate whether FTA’s efforts
                                                                                                            FHWA (1) effectively coordinates with the Bureau of    have ensured that (1) the East Side Access project’s
“ESA_3154” BY METROPOLITAN TRANSPORTATION AUTHORITY OF THE STATE OF NEW YORK / PATRICK CASHIN / CC BY 2.0




                                                                                                            Indian Affairs to administer and manage the Tribal     current plans will mitigate cost, schedule, and local
                                                                                                            Transportation Program and (2) provides adequate       funding risks and (2) ARRA funding and oversight
                                                                                                            oversight of projects.                                 requirements were met.

                                                                                                            FTA’S NATIONAL TRANSIT DATABASE                        FOLLOW-UP AUDIT ON CROSS-
                                                                                                            The National Transit Database (NTD) was
                                                                                                                                                                   BORDER TRUCKING
                                                                                                            established to be the Nation’s primary source of       OIG is conducting a follow-up audit of FMCSA’s
                                                                                                            information and performance statistics on U.S.         implementation of NAFTA’s cross–border
                                                                                                            transit systems. Congress, Federal agencies, and       provisions. The Fiscal Year 2002 Department of
                                                                                                            transit industry stakeholders rely on NTD data to      Transportation Appropriations Act and subsequent
                                                                                                            make sound planning and investment decisions.          appropriations legislation through 2012 mandates
                                                                                                            FTA apportions over $6 billion annually in formula     that we review the safety requirements related
                                                                                                            grants to nearly 2,000 urban and rural transit         to Mexico-domiciled motor carrier operations.
                                                                                                            agencies based on NTD data. We are evaluating          Accordingly, we are determining whether
                                                                                                            whether FTA’s oversight of NTD data ensures that       FMCSA (1) continues to comply with the safety
                                                                                                            submissions from grant recipients and beneficiaries    requirements set forth in Section 350(c) of the
                                                                                                            of transit funds for the Urbanized Area Formula        2002 Appropriations Act and (2) has taken sufficient
                                                                                                            Program are complete, accurate, and timely.            action to implement our prior recommendations
                                                                                                                                                                   for improving its capacity to perform bus
                                                                                                                                                                   inspections at U.S.-Mexico border crossings.




                                                                                                                                                                            Semiannual Report to Congress  |  73
In Progress

FHWA’S OVERSIGHT OF                                    FHWA’S EFFORTS TO IMPROVE
UNEXPENDED ARRA OBLIGATIONS                            OPERATIONAL EFFICIENCY
ARRA established tight timeframes for the use of       To accomplish its mission and oversee States’ use
over $27 billion invested in highway infrastructure    of Federal highway funds, FHWA has a workforce of
projects. As of September 2012, approximately $1.6     about 3,000 staff distributed across headquarters,
billion, or 6 percent, of the ARRA funds that States   52 State Division Offices, and other smaller field
have obligated to projects had not been expended.      activities. A primary goal in FHWA’s current
We are assessing (1) FHWA’s actions to monitor         strategic plan relates to “corporate capacity”—
remaining unexpended ARRA funds on highway             ensuring organizational resources are optimally
projects and (2) the impact of FHWA’s policies and     deployed to meet today’s and tomorrow’s
procedures on the use of recovered ARRA funds.         missions. Accordingly, we are assessing FHWA’s
                                                       planned and completed actions for ensuring its
DOT’S EFFORTS TO IMPLEMENT                             resources are used efficiently to meet current and
MOVING AHEAD FOR PROGRESS                              future corporate capacity goals.

IN THE 21ST CENTURY ACT (MAP-21)                       IMPLEMENTATION OF THE
PROJECT AND PROGRAM DELIVERY                           COMPLIANCE, SAFETY,
REQUIREMENTS—PHASE 1                                   ACCOUNTABILITY PROGRAM
Subtitle C of MAP-21, the July 2012 surface            FMCSA’s Compliance, Safety, Accountability (CSA)
transportation authorization, includes program         program is intended to improve commercial motor
reforms designed to reduce project delivery time       vehicle safety by focusing enforcement efforts on
and costs while protecting the environment. MAP-       higher risk carriers. CSA’s Safety Measurement
21 directs OIG to assess the Department’s related      System uses seven safety improvement categories
efforts. We initiated a three-phase approach to        to evaluate carriers’ performance and assess their
meet this mandate. In the first phase, we are (1)      potential crash risks. At the request of the House
reviewing the Department’s plans to carry out          Transportation and Infrastructure Committee’s
MAP-21, Subtitle C provisions; (2) assessing the       Subcommittee on Highways and Transit, we are
status of planned actions; and (3) identifying         assessing whether FMCSA has (1) established
challenges that could affect the Department’s          adequate controls to ensure the quality of the
timely implementation of those plans.




74  |  Work Planned and In Progress
In Progress                                            Planned

data used to evaluate carrier performance and risk     FINAL AUDIT OF THE NAFTA PILOT
and (2) effectively implemented CSA enforcement
interventions.
                                                       PROGRAM
                                                       OIG plans to conduct the final in a series of three
DOT’S HURRICANE SANDY                                  congressionally mandated audits of FMCSA’s
EMERGENCY RELIEF EFFORTS                               NAFTA cross-border trucking pilot program. We
                                                       plan to determine whether (1) the pilot program
The Disaster Relief Appropriations Act of 2013         consists of an adequate and representative sample
provides funds to assist in recovery and rebuilding    of Mexico-domiciled carriers that are likely to
efforts in the aftermath of Hurricane Sandy. The       engage in cross-border operations beyond U.S.
Act directs OIG to conduct oversight of Hurricane      municipalities and commercial zones on the U.S.-
Sandy relief funds, focusing on FTA’s allocation of    Mexico border, (2) Federal and State monitoring
more than $10 billion. OIG plans to conduct an audit   and enforcement activities are sufficient to ensure
to identify any vulnerabilities that could impede      that pilot program participants comply with
DOT’s ability to (1) meet the Act’s requirements and   all applicable laws and regulations, and (3) the
(2) provide effective oversight of Federal Hurricane   Department has established sufficient mechanisms
Sandy relief funds. Our Offices of Highway and         to identify adverse affects of the pilot program on
Transit, Financial and Information Technology, and     motor carrier safety.
Acquisition and Procurement will partner on this
work.                                                  DOT’S EFFORTS TO IMPLEMENT
                                                       MAP-21 PROJECT AND PROGRAM
                                                       DELIVERY REQUIREMENTS—PHASE 2
                                                       To continue meeting our mandate to assess the
                                                       Department’s implementation of MAP-21 project
                                                       and program delivery reforms, we will undertake
                                                       the second phase of our three-phase audit.
                                                       Specifically, we will assess the status of DOT’s
                                                       reforms a year after the law’s passage and any
                                                       other key issues that warrant a detailed review,
                                                       based on potential vulnerabilities that emerged
                                                       during the first phase of our audit.




                                                                Semiannual Report to Congress  |  75
76  |  Work Planned and In Progress
                                                                                                                           RAIL, MARITIME, HAZMAT TRANSPORT, AND
                                                                                                                           ECONOMIC ANALYSIS

                                                                                                                           In Progress

                                                                                                                           MARAD OVERSIGHT AND                                    EFFECTS OF LIMITED COMPETITION
                                                                                                                           COORDINATION OF PORT                                   ON AIRLINE FLIGHT DELAYS AND
                                                                                                                           INFRASTRUCTURE DEVELOPMENT                             CANCELLATIONS
                                                                                                                           PROJECTS                                               To meet a requirement of the FAA Modernization
                                                                                                                           Since 2003, MARAD has played a key role in             and Reform Act of 2012, OIG is analyzing the
                                                                                                                           overseeing and coordinating port infrastructure        effects of limited competition on airline delays
“A CRANE LOADS TWO U.S.-BUILT PATROL BOATS ONTO THE MARAD READY RESERVE FORCE” BY OFFICIAL U.S. NAVY IMAGERY / CC BY 2.0




                                                                                                                           development projects, acting as a central              and cancellations. To conduct this analysis, we
                                                                                                                           procurement organization, leveraging Federal and       are developing econometric models of delays
                                                                                                                           non-Federal funding resources, and streamlining        and cancellations. These models will allow us
                                                                                                                           environmental review and permit processes.             to separate the effects of changes or limits in
                                                                                                                           OIG is assessing MARAD’s (1) oversight and risk        competition on delays and cancellations from
                                                                                                                           management of port infrastructure development          the effects of other factors, such as weather and
                                                                                                                           projects and (2) oversight of port infrastructure      congestion.
                                                                                                                           projects’ contract awards and administration.
                                                                                                                                                                                  FRA’S PROGRESS IN IMPLEMENTING
                                                                                                                           FRA’S NATIONAL ENVIRONMENTAL                           THE PROVISIONS OF THE
                                                                                                                           PROTECTION ACT PROCESS                                 PASSENGER RAIL INVESTMENT AND
                                                                                                                           As part of its $10.1 HSIPR program, FRA collaborates
                                                                                                                                                                                  IMPROVEMENT ACT OF 2008 (PRIIA)
                                                                                                                           with project grantees and other DOT modal              As required by Section 221 of PRIIA, OIG is
                                                                                                                           administrations on construction as well as             conducting its second assessment of FRA’s
                                                                                                                           compliance with National Environmental Policy          implementation of PRIIA provisions. Our audit
                                                                                                                           Act (NEPA) requirements. Given HSIPR’s size            objectives are to (1) examine FRA’s continued
                                                                                                                           and complexity, it is essential that FRA staff and     progress in implementing its PRIIA responsibilities
                                                                                                                           grantees have clear policies, procedures, and          and (2) identify any challenges to completing these
                                                                                                                           guidance for navigating the NEPA application           actions.
                                                                                                                           process. To increase transparency in FRA’s NEPA
                                                                                                                           application process and address concerns raised
                                                                                                                           by stakeholders, OIG is assessing FRA’s policies,
                                                                                                                           procedures, and guidance for coordinating with
                                                                                                                           FHWA and FTA and ensuring FRA staff and grantees
                                                                                                                           meet NEPA requirements.




                                                                                                                                                                                           Semiannual Report to Congress  |  77
In Progress

FRA’S RAILROAD REHABILITATION                           PHMSA’S OVERSIGHT AND
AND IMPROVEMENT FINANCING                               ENFORCEMENT OF THE STATE
PROGRAM                                                 PIPELINE SAFETY PROGRAM
FRA’s Railroad Rehabilitation and Improvement           The September 2010 pipeline explosion in San
Financing (RRIF) program authorizes FRA to              Bruno, CA—which killed eight and destroyed 37
provide loans and loan guarantees to railroads          homes—as well as other recent accidents called
and other eligible entities to finance the              into question the effectiveness of Federal and State
development of railroad infrastructure. We are          oversight and enforcement of pipeline operators’
conducting a review of FRA’s oversight of RRIF,         compliance with federally mandated safety
and the effectiveness of the program’s support          requirements. We are conducting an audit to assess
to railroads and other eligible entities in achieving   PHMSA’s policies and processes for (1) executing
improvements to the Nation’s rail infrastructure        the State Pipeline Safety Program and (2) verifying
as envisioned by the authorizing statute. Our           States execute their pipeline safety oversight and
objectives are to (1) assess FRA’s policies and         enforcement responsibilities.
procedures for evaluating and selecting RRIF
applications and (2) identify factors that affect
prospective applicants’ decisions on whether or not
to apply for RRIF credit assistance.




78  |  Work Planned and In Progress
Planned

AMTRAK ANNUAL BUDGET AND                             PHMSA’S HAZMAT SPECIAL PERMITS
5-YEAR PLAN                                          AND APPROVALS PROGRAM
As required by Section 204 of PRIIA, OIG plans to    At the request of the Senate Appropriations
review Amtrak’s fiscal year 2013 annual budget and   Transportation Subcommittee, we plan to evaluate
5-year financial plan to determine whether they      PHMSA’s progress in implementing action plans
meet PRIIA requirements and provide any relevant     to improve management and oversight of the
findings to the House Committee on Transportation    Hazardous Materials Special Permits and Approvals
and Infrastructure; the Senate Committee on          Program. Specifically, we plan to assess the
Commerce, Science, and Transportation; and the       effectiveness of PHMSA’s application, evaluation,
House and Senate Committees on Appropriations.       authorization, and agency coordination policies and
                                                     procedures for approving special permits.




                                                              Semiannual Report to Congress  |  79
80  |  Work Planned and In Progress
                                                  FINANCIAL AND INFORMATION TECHNOLOGY

                                                  In Progress

                                                  QUALITY CONTROL REVIEW OF                              SECURITY CONTROLS OVER FAA’S
                                                  STATEMENT ON STANDARDS FOR                             CIVIL AVIATION REGISTRY SYSTEMS
                                                  ATTESTATION ENGAGEMENTS                                OIG is assessing FAA’s registry systems for airmen
                                                  (SSAE-16) NO. 16 REVIEW OF DOT’S                       certification, rating, and authorization to determine
                                                  ENTERPRISE SERVICES CENTER                             whether (1) personally identifiable information
                                                                                                         is secure from unauthorized use or access, (2)
                                                  OIG is performing a quality control review             information in the registry systems is sufficient
                                                  of the audit performed by an independent               for managing aircraft registrations and airmen’s
                                                  public accounting firm to determine whether            records, and (3) registry contingency planning
                                                  (1) management’s description of the service            ensures FAA’s continued ability to accomplish its
                                                  organization’s systems are fairly presented; (2)       mission of aviation safety.
                                                  controls are suitably designed; and (3) controls are
                                                  operating effectively for the period of October 1,     DOT’S COMMON OPERATING
                                                  2012, through June 30, 2013.                           ENVIRONMENT ASSESSMENT
                                                  DOT’S INFORMATION SECURITY                             The Common Operating Environment (COE), DOT’s
                                                  PROGRAM AND PRACTICES FOR                              largest non-FAA network, supports the Department
                                                                                                         in fulfilling its missions. Because COE also contains
                                                  FISCAL YEAR 2013                                       considerable amounts of personally identifiable
                                                                                                         information, DOT needs to protect the network
                                                  As mandated by the Federal Information Security
                                                                                                         and the availability, integrity, and confidentiality of
                                                  Management Act of 2002, OIG is performing
                                                                                                         its information. OIG is performing a review to (1)
                                                  its annual review of DOT’s information security
                                                                                                         determine whether COE is secure from compromise
                                                  program and practices to determine their
“ALL SYSTEMS GO!” BY ANDREW HART / CC BY-SA 2.0




                                                                                                         and (2) identify other security weaknesses.
                                                  effectiveness.




                                                                                                                  Semiannual Report to Congress  |  81
In Progress

SECURITY CONTROLS FOR FAA’S                                  QUALITY CONTROL REVIEWS OF
AIR TRAFFIC CONTROL SYSTEM                                   DOT’S FISCAL YEARS 2013 AND
COMMAND CENTER                                               2012 CONSOLIDATED FINANCIAL
Air Traffic Control System Command Center
                                                             STATEMENTS, AND FAA’S,
(ATCSCC) systems assist FAA in managing air                  SLSDC’S, AND NTSB’S FINANCIAL
traffic flow, resolving inter-air traffic facility issues,   STATEMENTS
and addressing weather and other conditions
that stress the NAS. As such, it is critical that FAA        OIG is performing quality control reviews of the
protect these systems and the availability and               audits performed by independent public accounting
integrity of their information. OIG is performing            firms to determine whether the audits were
a review to assess ATCSCC systems’ information               performed in accordance with applicable auditing
security controls, including whether FAA is                  standards.
identifying security risks and properly mitigating
them.                                                        QUALITY CONTROL REVIEWS OF
FAA’S AUTOMATIC DEPENDENT                                    SINGLE AUDITS ON DOT GRANTEES
SURVEILLANCE-BROADCAST SYSTEM                                OIG is performing quality control reviews of the
                                                             audits performed by independent public accounting
The satellite-based surveillance technology in FAA’s         firms on grant recipients’ use of DOT funds.
Automatic Dependent Surveillance-Broadcast
(ADS-B) system will complement radar by using
aircraft avionics and ground-based systems to
provide information on aircraft locations to
pilots and controllers. As required by the FAA
Modernization Reform Act of 2012, we are
evaluating how security issues are being addressed
in ADS-B’s overall design and implementation.




82  |  Work Planned and In Progress
In Progress

DOT’S PURCHASE CARD PROGRAM                           DOT’S TRAVEL CARD PROGRAM
OIG is performing an audit of DOT’s purchase card     OIG is performing an audit of DOT’s travel card
program, which offers a convenient and efficient      program, which provides cards for DOT employees
way for Government agencies to purchase a wide        to pay for expenses related to official Government
variety of goods and services. In fiscal year 2010,   travel. In fiscal year 2012, DOT employees made 1.3
DOT employees made more than $200 million             million payments and charges on their travel cards
in purchases with purchase cards. Recent OIG          totaling $175 million. A prior DOT audit on the use of
investigations have identified internal control       travel cards identified instances of employee abuse
issues within the program that have contributed to    of travel cards by charging personal purchases,
instances of fraud. We are assessing the adequacy     withdrawing cash in excess of their needs, and not
of controls established to prevent and detect         paying their bills on time. We are assessing DOT’s
inappropriate or unauthorized use of DOT-issued       internal controls to determine their effectiveness in
purchase cards.                                       preventing and detecting travel charge misuse.

FTA’S IMPROPER PAYMENT                                UNION STATION REDEVELOPMENT
CONTROLS                                              CORPORATION
The Improper Payments Information Act of              At the request of Representative Nick J. Rahall
2002 holds Federal agencies accountable for           II and Congresswoman Eleanor Holmes Norton,
preventing and detecting improper payments in         OIG is performing an audit of the management
their programs. More recently enacted statutes        and financial viability of the Union Station
implemented sanctions for noncompliance with          Redevelopment Corporation (USRC). Our objectives
mandated requirements to reduce and recover           are to (1) conduct a quality control review of USRC’s
improper payments. The Department identified          latest financial statement audit to determine
FTA’s Formula Grant and Capital Investment Grant      if the audit was performed in accordance with
programs as susceptible to significant improper       applicable standards and (2) assess the adequacy of
payments; 99 percent of FTA’s ARRA funds              USRC’s oversight of Union Station’s development,
were awarded through these programs. We are           operation, and maintenance.
assessing FTA’s internal controls to determine if
they are adequate to prevent and detect improper
payments to ARRA grant recipients.




                                                               Semiannual Report to Congress  |  83
In Progress

REVIEW OF DOT’S COMPLIANCE
WITH THE REDUCING OVER-
CLASSIFICATION ACT
On October 7, 2010, the President signed legislation
to decrease the over-classification of information
and promote information sharing across the
Federal Government and with State, local, tribal,
and private sector entities. The Reducing Over-
Classification Act also directs Federal Inspectors
General to assess the effectiveness of their
agency’s classification policies. Our objectives
are to (1) assess whether applicable classification
policies, procedures, rules, and regulations have
been effectively administered within DOT; (2)
identify policies, procedures, rules, regulations, or
management practices that may be contributing
to persistent misclassification of material within
DOT; and (3) evaluate DOT’s classification training
program.




84  |  Work Planned and In Progress
Planned

DOT’S PRIVACY MANAGEMENT                              FHWA’S IMPROPER PAYMENT
PROGRAM                                               OVERSIGHT OF ARRA GRANT
Pursuant to Section 742 of the Appropriations Act
                                                      PROGRAMS
of 2008, OIG will perform a review of DOT’s privacy   ARRA appropriated $27.5 billion to FHWA. As of
management program to determine whether DOT           December 31, 2012, FHWA had expended more
(1) has an effective privacy management program       than $25.4 billion in ARRA grant funds. We plan
and (2) adequately protects personally identifiable   to evaluate whether FHWA has adequate internal
information.                                          controls to prevent and detect improper payments
                                                      to ARRA grant recipients.

                                                      




                                                              Semiannual Report to Congress  |  85
86  |  Work Planned and In Progress
                                                            ACQUISITION AND PROCUREMENT

                                                            In Progress

                                                            UPDATE ON FAA’S CHALLENGES                          DOT’S ADMINISTRATION OF
                                                            FOR THE AIR TRAFFIC CONTROLLER                      THE DISADVANTAGED BUSINESS
                                                            OPTIMUM TRAINING SOLUTION                           ENTERPRISE PROGRAM
                                                            CONTRACT                                            Each year, DOT’s DBE program distributes over
                                                            At the request of the Chairman of the Senate        $3 billion to increase the participation of socially
                                                            Homeland Security and Governmental Affairs          and economically disadvantaged firms in State
                                                            Committee’s Subcommittee on Contracting             and local contract awards. We are assessing DOT
                                                            Oversight, OIG is conducting a follow-up audit      and State policies, internal controls, and program
                                                            of FAA’s Air Traffic Controller Optimum Training    management to determine whether they are
                                                            Solution (ATCOTS) contract, an $859-million         adequate to ensure only eligible firms are certified
                                                            contract intended to provide up to 10 years         as DBEs and funds are effectively used to meet the
                                                            of controller training support and to assist in     program’s objectives.
                                                            modernizing the training program. In September
                                                            2010, we reported that FAA faced significant        DOT’S ADMINISTRATION OF COST-
                                                            challenges in achieving program goals under the     REIMBURSABLE CONTRACTS
                                                            ATCOTS contract. We are currently determining
                                                            whether FAA (1) has implemented our prior           In fiscal year 2010, DOT obligated $1.7 billion for
                                                            recommendations to improve program and              new cost-reimbursable contracts. This contract
                                                            contract oversight, (2) has established effective   type shifts cost risk from the contractor to the
                                                            performance measures to support ATCOTS training     Government. Recent legislation requires that
“ANALYZING FINANCIAL DATA” BY DAVE DUGDALE / CC BY-SA 2.0




                                                            goals, and (3) can achieve ATCOTS training goals    Inspectors General review their agencies’ use
                                                            under the current contract.                         of these contracts for compliance with Federal
                                                                                                                acquisition regulations. We are conducting an
                                                                                                                audit to determine the extent to which DOT has
                                                                                                                complied with revisions to Federal Acquisition
                                                                                                                Regulations that address the proper use and
                                                                                                                management of cost-reimbursement contracts.




                                                                                                                          Semiannual Report to Congress  |  87
In Progress

MANAGEMENT OF THE                                      complex to manage and oversee. Our objectives
                                                       are to (1) assess the steps DOT has taken to reduce
METROPOLITAN WASHINGTON                                management support services contract spending
AIRPORTS AUTHORITY                                     and (2) determine if DOT and its Operating
                                                       Administrations have implemented effective
Under the terms of an 80-year lease authorized         controls to maintain reduced spending levels.
by the Metropolitan Airports Act of 1986, the
Metropolitan Washington Airports Authority             FOLLOW-UP AUDIT ON DOT’S
manages the federally owned Washington Dulles
and National airports, and related facilities. Since
                                                       SUSPENSION AND DEBARMENT
2006, MWAA has also been responsible for the           PROGRAM
federally funded Dulles Corridor Metrorail Project,
receiving three FTA grants with a cumulative           Suspension and debarment (S&D) actions are
value of $900 million for Phase I. We are assessing    among the Government’s strongest tools to deter
MWAA’s controls for ensuring that FTA funds for        unethical and unlawful use of Federal funds. In
Phase I of the Metrorail project were spent on         January 2010, we reported that DOT’s S&D program
eligible costs.                                        lacked sufficient controls to prevent awards of
                                                       contracts and grants to prohibited parties—those
DOT’S USE OF MANAGEMENT                                with records of wrongdoing and abuse. To respond
                                                       to our recommendations, DOT has taken actions
SUPPORT SERVICES CONTRACTS                             to improve its S&D policies and procedures,
                                                       including revising its procedures for identifying
As part of the White House’s Campaign to Cut
                                                       and reporting prohibited parties. However, our
Waste, OMB announced its goal to reduce contract
                                                       ongoing work continues to find weaknesses in
spending on management support services by 15
                                                       DOT’s S&D process. Given the importance of
percent by the end of fiscal year 2012. DOT relies
                                                       S&D programs and recent S&D directives from
heavily on support services contracts to meet its
                                                       OMB, we initiated a follow-up audit of DOT’s S&D
mission needs; for fiscal year 2011, DOT reported
                                                       program to determine if DOT suspends or debars
to the Office of Federal Procurement Policy that
                                                       prohibited parties and reports S&D activities in
it obligated over $1.2 billion in such contracts.
                                                       governmentwide tracking systems timely and
However, DOT frequently uses time-and-materials,
                                                       accurately.
cost-reimbursement, or other contract vehicles that
create cost risks and challenges because they are




88  |  Work Planned and In Progress
In Progress

DOT’S EFFORTS TO ENSURE                               to ensure reasonable contract prices, they are to
                                                      conduct additional price analysis reviews or request
PRICE REASONABLENESS PRIOR                            contract audits from external parties. Pre-award
TO AWARDING FIXED-PRICE                               price reasonableness reviews are especially critical
CONTRACTS                                             for fixed-price contracts because the pre-award
                                                      phase is the only opportunity for the Government
The Federal Acquisition Regulation requires           to mitigate the risk of paying unreasonably high
agencies to establish fair and reasonable prices      prices. Since 2011, DOT has obligated $2.1 billion
prior to awarding contracts to help ensure they       annually using fixed-price contracts. We are
receive the best value in their acquisitions. To      assessing the extent to which and how DOT and
this end, agencies are required to perform a fair     its operating administrations obtain, perform, and
and reasonable price determination—or price           use of pre-award price reasonableness reviews to
reasonableness review—using various analytical        establish fair and reasonable prices on fixed-price
techniques. If agencies lack sufficient information   contracts.




                                                               Semiannual Report to Congress  |  89
In Progress

Office of Acquisition and Procurement Joint
Audits in Progress
In addition to directing its own audits, OIG’s Office of Acquisition and Procurement partners with
other OIG offices to provide acquisition expertise and audit work on a broad and cross-cutting range
of reports related to our aviation; highway and transit; rail, maritime, and hazmat transport; and
information technology work.


In progress                    Partner office           Objective
MARAD OVERSIGHT AND            Rail, Maritime, Hazmat  Since 2003, MARAD has played a key role in
                               Transport, and Economic overseeing and coordinating port infrastructure
COORDINATION OF
                               Analysis                development projects, acting as a central
PORT INFRASTRUCTURE                                    procurement organization, leveraging Federal and
DEVELOPMENT PROJECTS                                   non-Federal funding resources, and streamlining
                                                       environmental review and permit processes.
                                                       OIG is assessing MARAD’s (1) oversight and risk
                                                       management of port infrastructure development
                                                       projects and (2) oversight of port infrastructure
                                                       projects’ contract awards and administration.

FTA’S INITIAL                  Highway and Transit      The Sandy Recovery Improvement Act requires
                                                        FTA to implement a new Public Transportation
IMPLEMENTATION OF
                                                        Emergency Relief Program. We are assessing FTA’s
SANDY RECOVERY                                          readiness, processes, and procedures for meeting
IMPROVEMENT ACT OF                                      this and other Sandy Recovery statutory and
2013                                                    regulatory requirements. As part of this audit, we
                                                        are focusing on contract award and oversight plans,
                                                        including the status of FTA’s review of recipients’
                                                        procurement systems and guidance on emergency
                                                        contracting practices.




90  |  Work Planned and In Progress
Planned

DOT’S CONTRACT CLOSEOUT                                PARTICIPATION IN FAA’S AIRPORT
PROCESSES                                              DISADVANTAGED BUSINESS
Effective contract closeout processes protect the
                                                       ENTERPRISE PROGRAM
Government’s interests, minimize administrative        Under FAA’s Airport DBE program, an airport
costs for the Government and the contractor, and       receiving Federal grants must establish an
free excess funds for use elsewhere. In fiscal year    annual goal of what DBE participation would
2011, DOT obligated approximately $5.7 billion on      be in the absence of discrimination. To achieve
contracts for goods and services—a significant         its goal, an airport seeks to award contracts in
pool of contracts that may require careful contract    procurement, construction, professional services,
closeout. The objective of this audit will be to       and concessions to small businesses owned by
determine whether DOT’s Office of the Secretary        women or minorities. In the FAA Modernization
and operating administrations are closing contracts    and Reform Act of 2012, Congress raised concerns
efficiently and effectively, including de-obligating   that discrimination and related barriers continue
funds on completed contracts.                          to pose obstacles to disadvantaged firms seeking
                                                       to do business at the Nation’s airports. As part
FTA OVERSIGHT OF GRANTEES’                             of this legislation, Congress directed OIG to
CONTRACT AWARD AND                                     report annually from 2013 to 2015 on new DBE
ADMINISTRATION PRACTICES                               participation at large- and medium-hub airports and
                                                       to identify reasons why some airports have been
FTA has awarded billions of dollars for the            more successful than others at hiring new DBEs.
construction, renovation, and preventative             Accordingly, we plan to (1) determine the number
maintenance of transit facilities. The objective       of new and existing DBE firms hired at the Nation’s
of this audit will be to determine whether FTA’s       large- and medium-sized airports in 2012 and (2)
oversight of transit agencies’ construction and        identify what factors led some airports to award
renovation grants is sufficient to ensure that         more contracts to new DBE firms.
(1) contract award and administration practices
they comply with laws, regulations, policies, and
procedures and (2) processes for monitoring cost,
schedule, and performance goals facilitate effective
contract administration.




                                                                Semiannual Report to Congress  |  91
92  |  Statistical Performance Data
                                                            STATISTICAL PERFORMANCE DATA



                                                            Summary of Performance
                                                            October 1, 2012 – March 31, 2013
                                                            (dollars in thousands)


                                                            Reports issued                                                                67

                                                            Recommendations issued                                                       170

                                                            Congressional testimonies                                                      4

                                                            Total financial recommendations                                      $2,754,118

                                                              That funds be put to better use                                   $2,726,000

                                                              Questioned costs                                                      $28,118
“ANALYZING FINANCIAL DATA” BY DAVE DUGDALE / CC BY-SA 2.0




                                                            Fines (and special assessments), restitution, and recoveries             $6,154

                                                            Indictments                                                                   40

                                                            Convictions                                                                   40




                                                                                                          Semiannual Report to Congress  |  93
Audits

Completed OIG Reports
October 1, 2012 – March 31, 2013
(dollars in thousands)a




                                    Number of      Number of Questioned       Unsupported Funds To Be Put
Category                              Reports Recommendations     Costs             Costs to Better Use
Internal Audits

Performance audits                         16               76     $7,100             $0          $82,000

Financial audits                            4               24         $0             $0       $2,644,000

Attestation engagements                     3                0         $0             $0               $0

Other OIG reports                           1                0         $0             $0               $0

Total for Internal Audit Reports           24             100      $7,100             $0      $2,726,000

Grant Audits

Audits under Single Audit Act              43               70    $21,018             $0               $0

Total for Completed Reports                67             170     $28,118             $0      $2,726,000

a
 The dollars shown are the amounts reported to management.The actual amounts may change during final
resolution.

Department of Transportation programs and operations are primarily carried out by Department
personnel and recipients of Federal grants. As a result, our audits generally fall into one of three
categories: internal audits of departmental programs and operations, audits of grant recipients, and
other OIG reports.




94  |  Statistical Performance Data
Audits

OIG Reports With Recommendations That
Questioned Costs
October 1, 2012 – March 31, 2013
(dollars in thousands)


                                                 Number of      Number of         Questioned      Unsupported
                                                   Reports Recommendations             Costs           Costsa
A      For which no management decision
       had been made by the start of the                 6                7              $3,666           $0
       reporting period
B      Which were issued during the
                                                        14               15          $28,118              $0
       reporting period

       Totals (A+B)                                     20               22         $31,784               $0

C      For which a management decision
       was made during the reporting                    12               14          $23,190              $0
       period

       (i) dollar value of disallowed costsb             9               11          $15,866              $0

       (ii) dollar value of costs not
                                                         3                3              $7,323           $0
            disallowedb
D      For which no management decision
       had been made by the end of the                   8                8              $8,594           $0
       reporting period

a
    Unsupported costs are also included in questioned costs.
b
    Includes reports and recommendations where costs were both allowed and disallowed.




                                                                    Semiannual Report to Congress  |  95
Audits

OIG Reports With Recommendations That Funds
Be Put to Better Use
October 1, 2012 – March 31, 2013
(dollars in thousands)


                                                                         Number of       Funds To Be Put to
                                           Number of Reports        Recommendations             Better Usea
A   For which no management decision
    had been made by the start of the                      1                         1               $426
    reporting period
B   Which were issued during the
                                                           2                         2         $2,726,000
    reporting period

    Totals (A+B)                                           3                         3        $2,726,426

C   For which a management decision
    was made during the reporting                          2                         2         $2,726,000
    period
    (i) dollar value of recommendations
                                                           2a                    2a            $2,726,000
    that were agreed to by management
    (ii) dollar value of recommendations
    that were not agreed to by                             0a                    0a                     $0
    management
D   For which no management decision
    had been made by the end of the                        1                         1               $426
    reporting period


Includes reports and recommendations where costs were both allowed and disallowed.
a




96  |  Statistical Performance Data
Audits

OIG Reports Recommending Changes for Safety,
Economy, or Efficiency
October 1, 2012 – March 31, 2013



                                                                              Number of        Number of
                                                                                Reports   Recommendations
A     For which no management decision had been made by the start of
                                                                                     39               96
      the reporting period
B     Which were issued during the reporting period                                  48              153

      Totals (A+B)                                                                  87               249

C     For which a management decision was made during the reporting
                                                                                     65              182
      perioda
D     For which no management decision had been made by the end of
                                                                                    35                67
      the reporting perioda
a
    Includes reports where management both made and did not make a decision on recommendations.




                                                                  Semiannual Report to Congress  |  97
Audits

Management Decisions Regarding OIG
Recommendations
October 1, 2012 – March 31, 2013
(dollars in thousands)


                                      Number of      Number of    Questioned   Unsupported Funds To Be Put
                                        Reports Recommendations        Costs        Costsa to Better Use
Unresolved as of 10/1/2012                  41             104        $3,666            $0           $426
Audits with findings during current
                                            57             170       $28,118              0     $2,726,000
period
Total To Be Resolved                        98             274      $31,784             $0     $2,726,426
Management Decisions
Prior period auditsb                        29              68        $1,924            $0             $0
Current period auditsb                      42             130       $21,266            $0      $2,726,000
Total Resolved                              71             198      $23,190             $0     $2,726,000
Age of Unresolved Auditsc
Less than 6 months old                      21              40        $6,852            $0             $0
6 months to year                            10              17        $1,249            $0             $0
1 year to 18 months                           2              5            $0            $0             $0
18 months to 2 years                          2              5         $493             $0           $426
Over 2 years old                              5              9            $0            $0             $0
Unresolved as of 3/31/2013                  40              76       $8,594             $0           $426
a	
   Unsupported costs are also included in the figures shown as questioned costs.
b
  	Includes reports and recommendations where costs were both allowed and disallowed.
c
  	Considered unresolved if management decisions have not been made on all report recommendations.




98  |  Statistical Performance Data
Audits

Published OIG Reports
October 1, 2012 – March 31, 2013



DEPARTMENTWIDE

Internal Audits: Performance - 2 reports
FISMA 2012: Ongoing Weaknesses      DOT has improved its information security controls. However, the
Impede DOT’s Progress Toward        Department’s information systems remain vulnerable to serious security
Effective Information Security      threats due to continued deficiencies in DOT’s information security
FI-2013-014                         procedures, controls, and remediation measures.
11/14/2012
DOT’s Fiscal Year 2012 Improper     DOT accurately reported improper payment information in its fiscal year
Payment Reporting Generally         2012 Annual Financial Report and complied with the Improper Payments
Complies With IPERA                 Elimination and Recovery Act, with some exceptions.
FI-2013-053
03/14/2013

Internal Audits: Financial - 1 report
Quality Control Review of Audited   OIG conducted a quality control review of KMPG, LLP’s report on
Consolidated Financial Statements   DOT’s financial statements. KMPG, LLP issued an unqualified opinion on
for Fiscal Years 2012 and 2011      DOT’s financial statements but reported one material weakness and two
QC-2013-020                         significant deficiencies in internal control over financial reporting. Put $2.6
11/15/2012                          billion to better use.

Grant Audits: Audits of Grantee Under Single Audit Act - 1 report
State of North Carolina             OIG conducted a quality control review of a single audit performed by
QC-2013-023                         the State Auditor on DOT’s major programs. We determined that the
12/05/2012                          State Auditor’s work was acceptable with deficiencies, and therefore
                                    generally met the requirements of generally accepted Government auditing
                                    standards, the Act, and OMB Circular A-133. We found nothing to indicate
                                    that the State Audi on DOT’s major programs were inappropriate or
                                    unreliable.




                                                                     Semiannual Report to Congress  |  99
Audits

FEDERAL AVIATION ADMINISTRATION

Internal Audits: Performance - 9 reports

MWAA’s Weak Policies and             MWAA’s contracting policies and practices are insufficient to ensure
Procedures Have Led to               compliance with the Airports Act and the lease agreement between DOT
Questionable Procurement             and MWAA. We also found ineffective contract management and oversight
Practices, Mismanagement, and a      and a lack of adequate procurement integrity policies to ensure impartiality
Lack of Overall Accountability       when awarding and administering contracts.
AV-2013-006
11/01/2012

Contract Towers Continue To          Contract towers continue to provide air traffic control services at a lower
Provide Cost-Effective and Safe      cost than similar FAA towers. In addition, contract towers had a lower
Air Traffic Services, but Improved   number and rate of safety incidents compared to similar FAA towers, and
Oversight of the Program Is Needed   users strongly support the program. However, OIG identified opportunities
AV-2013-009                          for FAA to enhance its oversight of the program, including strengthening
11/05/2012                           financial controls and implementing voluntary safety reporting systems at
                                     contract towers.


Quality Control Review for           OIG conducted a quality control review of KPMG LLP’s attestation
Controls Over the Enterprise         engagement pertaining to the Enterprise Services Center’s description
Service Center                       of its system and the suitability of the controls’ design and operating
QC-2013-021                          effectiveness. The Department determined that our report contains
11/16/2012                           sensitive security information; accordingly, we are not publicly disclosing
                                     our results.

FAA Has Not Adequately               OIG assessed ERAM's information security controls, including whether
Implemented Security Requirements    or not FAA is identifying security risks and properly mitigating them.
for Its En Route Automation          The Department determined that our report contains sensitive security
Modernization System                 information; accordingly, we are not publicly disclosing our results.
FI-2013-028
12/19/2012




100  |  Statistical Performance Data
Audits

FAA and Industry Are Advancing the     FAA has made considerable and important progress implementing many
Airline Safety Act, but Challenges     elements of the Act, such as advancing voluntary safety programs, improving
Remain To Achieve Its Full Measure     pilot rest requirements, and establishing better processes for managing
AV-2013-037                            safety risks. However, the Agency has not sufficiently targeted assistance
01/31/2013                             to smaller air carriers, which face the most challenges in developing and
                                       implementing new safety programs.

Inspector General Review of Fiscal     OIG reviewed FAA’s fiscal year 2012 Performance Summary Report and
Year 2012 Drug Control Funds and       management’s assertions. No information came to our attention that FAA’s
Performance Summary Reporting,         fiscal year 2012 Drug Control Obligation Summary and Performance
FAA                                    Summary reports did not conform with the Office of National Drug
FI-2013-038                            Control Policy Circular.
02/01/2013

Growth of Domestic Airline             OST and FAA are not required to review most domestic code share
Code Sharing Warrants Increased        agreements. In addition, carriers, travel agencies, and advertisers do not
Attention                              regularly disclose this information, creating confusion among consumers
AV-2013-045                            about which airline is operating their flight. Finally, as a safety regulator,
02/14/2013                             FAA is not required to review any domestic code share agreements and
                                       does not voluntarily do so. FAA also does not have specific procedures to
                                       advance the Agency’s commitment of ensuring an equivalent level of safety
                                       between mainline air carriers and their code share partners.

FAA’s Efforts To Track and Mitigate    The number of reported operational errors by controllers increased due
Air Traffic Losses of Separation Are   to a rise in actual errors and other factors.Yet FAA lacks an accurate
Limited by Data Collection and         baseline of the actual total number of separation losses that occur. FAA
Implementation Challenges              instituted new policies and procedures for improving the collection,
AV-2013-046                            investigation, and reporting of separation losses. However, incomplete data
02/27/2013                             and implementation challenges limit the effectiveness of these procedures.
                                       FAA recently developed new corrective action plans to mitigate high-risk
                                       separation loss events, but it is too early to determine the effectiveness of
                                       these plans.




                                                                      Semiannual Report to Congress  |  101
Audits

Improvements to DOT’s Governance FAA and DOT face challenges in providing sufficient oversight of FAA’s
Processes Are Needed To Enhance major IT investments because DOT does not have an active Investment
Oversight of Major IT Investments Review Board or supporting boards to provide a comprehensive
(also listed under Office of the  management framework for its major IT investments. FAA’s Joint Resources
Secretary)                        Council has a comprehensive framework for investment governance, yet
ZA-2013-057                       the Agency does not always follow the Council’s approval and oversight
03/27/2013                        processes, limiting DOT and FAA’s ability to effectively manage major
                                  acquisitions and make well-informed investment management decisions.

Internal Audits: Financial - 1 report
Quality Control Review of FAA’s    OIG conducted a quality control review of an audit performed by KPMG
Audited Financial Statements for   LLP on FAA’s financial statements for fiscal years 2012 and 2011. KPMG
Fiscal Years 2012 and 2011         LLP, under contract to OIG, issued a clean (unqualified) audit opinion on
QC-2013-013                        FAA’s financial statements. KPMG LLP’s report included two significant
11/14/2012                         deficiencies in internal control over financial reporting. There we no
                                   instances of reportable noncompliance with laws and regulations tested.

Grant Audits: Audits of Grantee Under Single Audit Act - 7 reports
City of Columbus, IN               A finding concerning the use of ARRA funds was identified. OIG
SA-2013-018                        recommends FAA improve grantee oversight; $47,896 questioned.
11/15/2012
Clark County Department of         OIG recommends FAA improve grantee oversight; $1,434,633 questioned.
Aviation, NV
SA-2013-030
01/24/2013
City of Kansas City, MO            OIG recommends FAA improve grantee oversight.
SA-2013-033
01/24/2013
Ridgewood High School              OIG recommends FAA improve grantee oversight; $623,620 questioned.
District 234, IL
SA-2013-036
01/24/2013
Sarasota Manatee Airport           OIG recommends FAA improve grantee oversight; $17,395 questioned.
Authority, FL
SA-2013-049
03/12/2013




102  |  Statistical Performance Data
Audits

Los Angeles World Airports, CA        OIG recommends FAA improve grantee oversight; $70,693 questioned.
SA-2013-050
03/12/2013
Gary Chicago International Airport    OIG recommends FAA improve grantee oversight.
Authority, IN
SA-2013-066
03/29/2013

FEDERAL HIGHWAY ADMINISTRATION
Internal Audits: Performance - 3 reports
Improvements to Stewardship and       FHWA fulfilled the statutory mandate to enter into Agreements with
Oversight Agreements Are Needed       each State. However, the Agreements do not consistently reflect Federal
To Enhance Federal-Aid Highway        requirements or program risks and priorities that FHWA identified. FHWA
Program Management                    has not provided sufficient guidance and oversight to Division Offices for
MH-2013-001                           developing and updating the Agreements to ensure that inconsistencies
10/01/2012                            reflect valid differences among the States and to ensure that legal issues are
                                      identified.
FHWA Has Opportunities To             FHWA missed opportunities to maximize ARRA investments, since
Improve Oversight of ARRA High        one-third of the States in our review did not perform value engineering
Dollar Projects and the Federal-Aid   studies during the project planning or design phase for at least one ARRA
Highway Program                       project. Further, FHWA did not consistently emphasize its cost estimating
MH-2013-012                           guidelines designed to help ensure States obligate ARRA funds for projects
11/14/2012                            based on best estimates of project costs. FHWA is now challenged to
                                      monitor ARRA obligations for any unused or idle funds that result from
                                      overestimating or other occurrences, and make certain that the States re-
                                      obligate or return ARRA funds before they expire in 2015. Put $82 million
                                      to better use.
FHWA Provides Sufficient Guidance FHWA provides sufficient guidance and assistance to the States to
and Assistance To Implement the   implement HSIP. FHWA conducts limited evaluations of State reported
Highway Safety Improvement        HSIP data to report on the program’s impact.
Program (HSIP) but Could Do More
To Assess Program Results
MH-2013-055
03/26/2013




                                                                     Semiannual Report to Congress  |  103
Audits

Grant Audits: Audits of Grantee Under Single Audit Act - 16 reports
Dry Creek Rancheria Band of Pomo Findings concerning the use of ARRA funds were identified. OIG
Indians, CA                      recommends FHWA improve grantee oversight.
SA-2013-003
10/17/2012
Craig Tribal Association, AK       A finding concerning the use of ARRA funds was identified. OIG
SA-2013-017                        recommends FHWA improve grantee oversight; $412,194 questioned.
11/15/2012
Pueblo of Zia, NM                  A finding concerning the use of ARRA funds was identified. OIG
SA-2013-022                        recommends FHWA improve grantee oversight.
11/19/2012
State of Utah                      A finding concerning the use of ARRA funds was identified. OIG
SA-2013-026                        recommends FHWA improve grantee oversight.
12/19/2012
State of New York                  A finding concerning the use of ARRA funds was identified. OIG
SA-2013-034                        recommends FHWA improve grantee oversight.
01/24/2013
Hoonah Indian Association, AK      OIG recommends FHWA improve grantee oversight; $11,394 questioned.
SA-2013-035
01/24/2013
Government of the United States    A finding concerning the use of ARRA funds was identified. OIG
Virgin Islands                     recommends FHWA improve grantee oversight.
SA-2013-041
02/12/2013
County of Spotsylvania,VA          A finding concerning the use of ARRA funds was identified. OIG
SA-2013-042                        recommends FHWA improve grantee oversight.
02/12/2013




104  |  Statistical Performance Data
Audits

State of Indiana                     OIG conducted a quality control review on a single audit performed of
QC-2013-047                          the Indiana State Board of Accounts’ audit work as related to two DOT
03/06/2013                           major programs and found the work was acceptable with a deficiency,
                                     and therefore generally met the requirements of generally accepted
                                     Government auditing standards, the Act, and OMB Circular A-133. We
                                     found nothing to indicate that the State audit on DOT’s major programs
                                     was inappropriate or unreliable.
New Mexico Department of             A finding concerning the use of ARRA funds was identified. OIG
Transportation                       recommends FHWA improve grantee oversight.
SA-2013-051
03/12/2013
State of Nevada                      Findings concerning the use of ARRA funds were identified. OIG
SA-2013-059                          recommends FHWA improve grantee oversight.
03/29/2013
Commonwealth of Pennsylvania         Findings concerning the use of ARRA funds were identified. OIG
SA-2013-060                          recommends FHWA improve grantee oversight; $6,128,979 questioned.
03/29/2013
State of Georgia (also listed under the Findings concerning the use of the ARRA funds were identified. OIG
Federal Transit Administration)         recommends FHWA and FTA improve grantee oversight.
SA-2013-062
03/29/2013
Commonwealth of Massachusetts        A finding concerning the use of ARRA funds was identified. OIG
SA-2013-064                          recommends FHWA improve grantee oversight.
03/29/2013
Commonwealth of Virginia             A finding concerning the use of ARRA funds was identified. OIG
SA-2013-065                          recommends FHWA improve grantee oversight.
03/29/2013




                                                                   Semiannual Report to Congress  |  105
Audits

Wyoming Department of                  Findings concerning the use of ARRA funds were identified. OIG
Transportation (also listed under      recommends FHWA, FTA, and NHTSA improve grantee oversight.
Federal Transit Administration and
National Highway Traffic Safety
Administration)
SA-2013-066
03/29/2013

FEDERAL RAILROAD ADMINISTRATION
Internal Audits: Performance - 2 reports
FRA’s Requirements for High-           FRA established stakeholder service outcome agreements for long-term
Speed Rail Stakeholder Agreements      corridor projects before obligating funds. However, most long-term project
Mitigated Risk but Delayed Some        grantees lack the maintenance and construction agreements required to
Projects’ Benefits                     receive funds and start work. Further, FRA’s initial focus on long-term
CR-2013-007                            projects delayed short-term project obligations and the determination of
11/01/2012                             requirements for short-term project agreements.
Amtrak’s New Cost Accounting           Amtrak’s new cost accounting system—Amtrak Performance Tracking
System Is a Significant Improvement,   (APT)—allows Amtrak to capture and report financial performance by
but Concerns Over Precision and        route, line of business, and major activity, as required by PRIIA. However,
Long-Term Viability Remain             implementation problems and heavy reliance on cost allocation have
CR-2013-056                            affected report timeliness and precision. APT’s highly customized design
03/27/2013                             also makes the system costly to maintain, raising concerns regarding its
                                       long-term utility. Finally, the avoidable cost methodology FRA plans to use
                                       to determine the cost savings from a route’s discontinuation has significant
                                       limitations that would substantially reduce the value of savings estimates
                                       provided to Amtrak and Congress.




106  |  Statistical Performance Data
Audits

FEDERAL TRANSIT ADMINISTRATION
Internal Audits: Performance - 1 report
DOT Has Opportunities to Address      DOT has not fully developed an oversight strategy for Phase 2 because the
Key Risk Areas for Phase 2 of the     local funding partners—MWAA and Fairfax and Loudoun Counties—have
Dulles Corridor Metrorail Project     yet to receive approval of Federal credit assistance for the project. Until
Upon Approval of Federal Financing    Federal credit assistance is approved, there are no obligated Federal dollars
MH-2013-054                           to oversee. Therefore, we cannot yet determine if DOT’s oversight of Phase
03/25/2013                            2 will be sufficient. Further, our assessment of Dulles Toll Road revenue
                                      estimates suggests that the assumptions MWAA used to arrive at the
                                      estimates are generally reasonable.

Grant Audits: Audits of Grantee Under Single Audit Act - 18 reports
City of Greeley, CO                   Findings concerning the use of the ARRA funds were identified. OIG
SA-2013-002                           recommends FTA improve grantee oversight.
10/17/2012
City of Longview, WA                  A finding concerning the use of the ARRA funds was identified. OIG
SA-2013-004                           recommends FTA improve grantee oversight.
10/17/2012
State of North Carolina               OIG recommends FTA improve grantee oversight.
SA-2013-005
11/15/2012
Commuter Rail Division of the         A finding concerning the use of the ARRA funds was identified. OIG
Regional Transportation Authority     recommends FTA improve grantee oversight; $1,267,845 questioned.
and the Northeast Illinois Regional
Commuter Railroad Corporation
(METRA), IL
SA-2013-015
11/15/2012




                                                                    Semiannual Report to Congress  |  107
Audits

Gary Public Transportation         A finding concerning the use of the ARRA funds was identified. OIG
Corporation, IN                    recommends FTA improve grantee oversight.
SA-2013-016
11/15/2012
Worcester Regional Transit         A finding concerning the use of the ARRA funds was identified. OIG
Authority, MA                      recommends FTA improve grantee oversight.
SA-2013-019
11/15/2012
Quality Control Review of Single   OIG conducted a quality control review of a single audit performed by
Audit on the Orange County         Vavrinek, Trine, Day & Co., LLP (VTD) on Orange County Transportation
Transportation Authority           Authority’s use of DOT grants for the fiscal year ending June 30, 2011.
QC-2013-024                        VTD’s work was acceptable with deficiencies, and therefore generally met
12/07/2012                         the requirements of generally accepted Government auditing standards,
                                   the Act, and OMB Circular A-133. We found nothing to indicate that VTD’s
                                   opinion on the Authority’s reports on internal control and compliance
                                   were inappropriate or unreliable. However, we identified deficiencies in
                                   audit documentation that VTD needs to correct in future audits.
King County, WA                    A finding concerning the use of the ARRA funds was identified. OIG
SA-2013-027                        recommends FTA improve grantee oversight; $4,078,175 questioned.
12/19/2012
Champaign-Urbana Mass Transit      Findings concerning the use of the ARRA funds were identified. OIG
District, IL                       recommends FTA improve grantee oversight.
SA-2013-029
12/21/2012
Southeastern Pennsylvania          Findings concerning the use of the ARRA funds were identified. OIG
Transportation Authority           recommends FTA improve grantee oversight.
SA-2013-031
01/24/2013
City of Tulsa, OK                  A finding concerning the use of the ARRA funds was identified. OIG
SA-2013-032                        recommends FTA improve grantee oversight.
01/24/2013




108  |  Statistical Performance Data
Audits

South Carolina Department of          OIG recommends FTA improve grantee oversight.
Transportation
SA-2013-043
02/12/2013
Southeastern Regional Transit         Findings concerning the use of the ARRA funds were identified. OIG
Authority, MA                         recommends FTA improve grantee oversight; $6,701,537 questioned.
SA-2013-044
02/12/2013
Los Angeles County Metropolitan       Findings concerning the use of the ARRA funds were identified. OIG
Transportation Authority, CA          recommends FTA improve grantee oversight.
SA-2013-048
03/12/2013
City of Fairfield, CA                 A finding concerning the use of the ARRA funds was identified. OIG
SA-2013-052                           recommends FTA improve grantee oversight.
03/12/2013
Capital Metropolitan Transportation A finding concerning the use of the ARRA funds was identified. OIG
Authority, TX                       recommends FTA improve grantee oversight; $223,378 questioned.
SA-2013-058
03/29/2013
State of Georgia (also listed under the Findings concerning the use of the ARRA funds were identified. OIG
Federal Highway Administration)         recommends FHWA and FTA improve grantee oversight.
SA-2013-062
03/29/2013
Wyoming Department of                 Findings concerning the use of the ARRA funds were identified. OIG
Transportation (also listed under     recommends FHWA, FTA, and NHTSA improve grantee oversight.
Federal Highway Administration
and National Highway Traffic Safety
Administration)
SA-2013-066
03/29/2013




                                                                    Semiannual Report to Congress  |  109
Audits

NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
Internal Audits: Performance - 2 reports
Office of Inspector General’s Review   OIG reviewed NHTSA’s fiscal year 2012 Performance Summary Report
of Fiscal Year 2012 Drug Control       and management’s assertions. No information came to our attention
Funds and Performance Summary          that NHTSA’s fiscal year 2012 Drug Control Obligation Summary and
Reporting, NHTSA                       Performance Summary reports did not conform with the Office of
FI-2013-039                            National Drug Control Policy Circular.
02/01/2013
NHTSA’s Oversight of Mississippi’s     The Mississippi Office of Highway Safety did not administer alcohol-
Management of Federal Highway          impaired driving transfer funds in accordance with Federal requirements,
Safety Grants Needs Strengthening      resulting in ineligible enforcement activities and improper payments to
MH-2013-040                            sub-grantees for activities not directly related to alcohol-impaired driving.
02/06/2013                             $7.1 million questioned.

Grant Audits: Audits of Grantee Under Single Audit Act - 1 report
Wyoming Department of                  Findings concerning the use of the ARRA funds were identified. OIG
Transportation (also listed under      recommends FHWA, FTA, and NHTSA improve grantee oversight.
Federal Highway Administration and
Federal Transit Administration)
SA-2013-066
03/29/2013

NATIONAL TRANSPORTATION SAFETY BOARD
Internal Audits: Financial - 1 report
Quality Control Review of the          OIG performed a quality control review of Leon Snead & Company, P.C.’s
National Transportation Safety         report on the National Transportation Safety Board’s financial statements
Board’s Audited Financial Statements   for fiscal years 2012 and 2011. Leon Snead & Company, P.C., issued an
for Fiscal Years 2012 and 2011         unqualified opinion on the financial statements. Leon Snead & Company,
QC-2013-010                            P.C.’s report did not include any reportable internal control deficiencies or
11/08/2012                             instances of reportable noncompliance with laws and regulations tested.




110  |  Statistical Performance Data
Audits

OFFICE OF THE SECRETARY
Internal Audits: Other - 1 report
DOT’s Fiscal Year 2013 Top            As required by law, OIG identified the top management challenges facing
Management Challenges                 the Department for Fiscal Year 2013.
PT-2013-011
11/15/2012

Internal Audits: Performance - 1 report
Improvements to DOT’s Governance      FAA and DOT face challenges in providing sufficient oversight of FAA’s
Processes Are Needed To Enhance       major IT investments because DOT does not have an active Investment
Oversight of Major IT Investments     Review Board or supporting boards to provide a comprehensive
(also listed under Federal Aviation   management framework for its major IT investments. FAA’s Joint
Administration)                       Resources Council has a comprehensive framework for investment
ZA-2013-057                           governance, yet the Agency does not always follow the Council’s
03/27/2013                            approval and oversight processes, limiting DOT and FAA’s ability to
                                      effectively manage major acquisitions and make well-informed investment
                                      management decisions

Grant Audits: Audits of Grantee Under Single Audit Act - 2 reports

Metropolitan Washington Council of A finding concerning the use of the ARRA funds was identified. OIG
Governments, Inc., Washington, DC recommends OST improve grantee oversight.
SA-2013-025
12/19/2012

Harbors Division, Department of       A finding concerning the use of the ARRA funds was identified. OIG
Transportation, State of Hawaii       recommends OST improve grantee oversight.
SA-2013-067
03/29/2013




                                                                   Semiannual Report to Congress  |  111
Audits

SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION
Internal Audits: Financial - 1 report
Quality Control Review of the Saint     OIG performed a quality control review of Chiampou Travis Besaw &
Lawrence Seaway Development             Kershner LLP report on SLSDC’s financial statements for fiscal years 2012
Corporation (SLSDC) Audited             and 2011. Chiampou Travis Besaw & Kershner LLP issued an unqualified
Financial Statements for Fiscal Years   opinion on SLDC’s financial statements for those fiscal years. Chiampou
2012 and 2011                           Travis Besaw & Kershner LLP’s report did not include any reportable
QC-2013-008                             internal control deficiencies or instances of reportable noncompliance with
11/02/2013                              laws and regulations tested.




112  |  Statistical Performance Data
Audits

OIG Congressional Testimonies
October 1, 2012 – March 31, 2013



A Grants Management Framework and Stakeholder               Before the Committee on Transportation and
Agreements Are Key to Fully Implementing FRA’s High-Speed   Infrastructure
Intercity Passenger Rail Program                            United States House of Representatives
CC-2013-004
12/6/2012
Observations on the Metropolitan Washington Airports        Before the Committee on Transportation and
Authority’s Governance                                      Infrastructure
CC-2013-005                                                 United States House of Represenatives
11/16/2012
Top Ten OIG Recommendations for the U.S. Department of      Before the Committee on Oversight and
Transportation                                              Government Reform
CC-2013-009                                                 United States House of Representatives
3/5/2013
Top Management Challenges Facing the Department of          Before the Committee on Appropriations
Transportation                                              Subcommittee on Transportation, Housing and
CC-2013-012                                                 Urban Development, and Related Agencies
3/14/2013                                                   United States House of Representatives




                                                              Semiannual Report to Congress  |  113
Audits

Unresolved Recommendations Over
6 Months Old
October 1, 2012 – March 31, 2013


Cited in Semiannual Report for October 1, 2009 - March 31, 2010
FAA’s Oversight of American Airlines’ Maintenance Programs (AV-2010-042)               02/16/10

Cited in Semiannual Report for April 1, 2010 - September 30, 2010
Information Security and Privacy Controls Over the Airmen Medical Support Systems
                                                                                       06/18/10
(FI-2010-069)

Cited in Semiannual Report for October 1, 2010 - March 31, 2011
FAA Did Not Ensure Revenue was Maximized at Denver International Airport
                                                                                       02/28/11
(AV-2011-057)

New York Flight Delays Have Three Main Causes, but More Work Is Needed To Understand
                                                                                       10/28/10
Their Nationwide Effect (AV-2011-007)

FAA Faces Significant Risks in Implementing the Automatic Dependent Surveillance–
                                                                                       10/12/10
Broadcast Program and Realizing Benefits (AV-2011-002)

Cited in Semiannual Report for April 1, 2011 - September 30, 2011
More Rigorous Oversight is Needed to Ensure Venice Municipal Airport Land Sales and
                                                                                       09/29/11
Leases are Used Appropriately (AV-2011-180)

FAA Needs To Strengthen Its Risk Assessment and Oversight Approach for Organization
                                                                                       06/29/11
Designation Authorization and Risk-Based Resource Targeting Programs (AV-2011-136)




114  |  Statistical Performance Data
Audits

Cited in Semiannual Report for October 1, 2011 - March 31, 2012
New Approaches Are Needed to Strengthen FAA Oversight of Air Carrier Training
                                                                                              12/20/11
Programs and Pilot Performance (ZA-2012-082)

State of Illinois (ZA-2012-082)                                                               11/23/11

Cited in Semiannual Report for April 1, 2012 - October 31, 2012
DOT Established Timely Controls For the TIGR Discretionary Grants Program, But
                                                                                             9/20/2012
Opportunities Exist to Strenghthen Oversight (MH-2012-188)
Territory of American Samoa (SA-2012-185)                                                    9/17/2012
Weaknesses in Program And Contract Management Contribute to ERAM Delays And Put
                                                                                             9/13/2012
Other Nextgen Initiatives At Risk (AV-2012-179)
City of Mount IDA, AR (SA-2012-172)                                                          8/30/2012
FAA Has Not Effecitvely Implemented Its Wildlife Hazard Mitigation Program
                                                                                             8/22/2012
(AV-2012-170)
Challenges With Implementing Near-Term Nextgen Capabilities At Congested Airports
                                                                                              8/1/2012
Could Delay Benefits (AV-2012-167)
Long term Success of ATSAP Will Require Improvements in Oversight, Accountability, and
                                                                                             7/19/2012
Transparency (AV-2012-152)
Commonwealth of Kentucky (SA-2012-114)                                                        5/3/2012

State of Rhode Island and Providence Plantations (SA-2012-104)                                5/2/2012

Status of Transformational Programs and Risks To Achieving Nextgen Goals (AV-2012-094)       4/23/2012




                                                                 Semiannual Report to Congress  |  115
Investigations

Statistical Outcomes
October 1, 2012 – March 31, 2013

Financial Impact                                  Judicial and Administrative Actions
Fines (and Special Assessments)        $778,676   Indictments                               40
Restitution                         $3,808,714    Convictions                               40
Recoveries                          $1,566,911    Years incarceration                       32
Total                               $6,154,301    Years supervised release                  42

Investigative Workload                            Years probation                           78
                                                  Hours community service                 1,740
Current investigations                     346
                                                  Business debarment                         1
Investigations opened                       51
Investigations closed                      105    Business suspension                        6
                                                  Individual debarment                       4
Referrals
                                                  Individual suspension                     15
Referred for criminal prosecution          161    Employee: Resigned/retired during
                                                                                             1
Accepted for criminal prosecution           87    investigation
Declined for criminal prosecution          140    Employee: Suspension                       1
                                                  Certification/License/Permit revoked/
Referred for civil prosecution              20                                               8
                                                  Terminated
Accepted for civil prosecution              11
                                                  Corrective action taken                    1
Declined for civil prosecution              17
                                                  Decertification MBE/DBE                    2
OIG Hotline Contacts                              Enforcement action taken                   2
Email                                     2,220
Fax                                         17
Letters                                    156
Web                                        576
Telephone                                  366
Walk-ins                                     1
Total                                    3,336




116  |  Statistical Performance Data
Investigations

Profile of All Pending Investigations by Case
Type
As of March 31, 2013

                     Number of Aviation              Motor Transportation    Grant Procurement Workforce Employee
                    Investigations Safety   Hazmat   Carrier   Safety        Fraud    Fraud    Protection Integrity   Othera
FAA                     81         43         6        0          0           18         2         0          9         3
FHWA                   114          0         0        0          0           96         1         16         1         0
FMCSA                   56          0         9       20          1           0          0         23         3         0
FRA                     4           0         0        0          0           3          0         0          1         0
FTA                     37          0         0        0          0           30         1         5          0         1
MARAD                   8           0         0        0          0           1          5         0          2         0
NHTSA                   10          0         0        0          3           7          0         0          0         0
OIG                     1           0         0        0          0           0          0         0          1         0
OST                     4           0         0        0          1           0          1         2          0         0
Other OIG               1           0         0        0          0           0          0         0          0         1
PHMSA                   27          0        24        0          0           0          0         0          3         0
RITA                    2           0         0        0          0           1          1         0          0         0
SLSDCb                  1           0         0        0          0           0          0         0          1         0
Totals                 346         43        39       20          5          156        11        46         21         5
Percent of Total      100%        12%       11%       6%         1%          45%       3%        13%         6%        1%

a	
     Includes computer intrusion cases
b	
     Saint Lawrence Seaway Development Corporation




                                                                            Semiannual Report to Congress  |  117
118  |  Peer Review
                                                 PEER REVIEW



                                                 OIG’s Office of Audits is currently the subject of   U.S. Department of the Treasury OIG. Treasury OIG
                                                 a Council of the Inspectors General on Integrity     concluded that our Office of Investigations was
                                                 and Efficiency (CIGIE) peer review by the U.S.       in compliance with quality standards established
                                                 Department of Defense (DOD) OIG. DOD OIG             by CIGIE and Attorney General guidelines, and
                                                 expects to issue a final report by May 31, 2013.     no recommendations were made. Treasury
                                                                                                      OIG highlighted our Investigative Operations’
                                                 The last peer review of OIG’s audit operations       Contractor Performance Oversight, Professional
                                                 was performed in fiscal year 2010 by the U.S.        Development Detail Program, and Special Agent
                                                 Department of Veterans Affairs (VA) OIG. VA OIG      Field Training Program as best practices. The report
                                                 determined the system of quality control for our     was released on August 30, 2012.
                                                 audit function has been suitably designed and
                                                 complied with to provide reasonable assurance        For reports of the peer reviews conducted on our
                                                 of performing and reporting in conformity with       office, go to http://www.oig.dot.gov/peer-review.
                                                 applicable professional standards in all material
                                                 respects. Accordingly, VA OIG provided a “pass”      We conducted a CIGIE peer review of the U.S.
                                                 rating, and no recommendations were made. The        Postal Service OIG’s audit operations, and provided
                                                 report was released on March 3, 2010.                a “pass” rating and made no recommendations. We
                                                                                                      reported the results of our review on December 18,
                                                 OIG’s Office of Investigations was the subject of    2012.
                                                 a CIGIE peer review during fiscal year 2012 by the
“BINDED DOCUMENT” BY SEAN MACENTEE / CC BY 2.0




                                                                                                              Semiannual Report to Congress  |  119
Inspector General
Deputy Inspector General
•	 Chief of Staff
•	 Director, Quality Assurance Reviews and Internal Affairs



Principal Assistant                    Principal Assistant               Assistant Inspector   Assistant Inspector
Inspector General                      Inspector General for             General for           General for Legal,
for Investigations                     Auditing and Evaluation           Administration        Legislative, and
                                                                                               External Affairs
Deputy Assistant                       Assistant Inspector General for
Inspector General for                  Aviation Audits
Investigations
                                       •	 Deputy Assistant Inspector
                                          General for Aviation Audits


                                       Assistant Inspector General
                                       for Financial and Information
                                       Technology Audits

                                       Assistant Inspector General for
                                       Highway and Transit Audits
                                       •	 Deputy Assistant Inspector
                                          for Highway and Transit
                                          Audits


                                       Assistant Inspector General
                                       for Rail, Maritime, and Hazmat
                                       Transport Audits, and Economic
                                       Analysis


                                       Assistant Inspector General for
                                       Acquisition and Procurement
                                       Audits




120  |  Mission and Organization
MISSION AND ORGANIZATION



The Office of Inspector General for the Department          Maritime, Hazmat Transport, and Economic
of Transportation was created by Congress through           Analysis; Financial and Information Technology;
the Inspector General Act of 1978 (Public Law 95-           and Acquisition and Procurement.
452). The Act sets several goals for OIG:
                                                         •	 The Office of the Principal Assistant Inspector
•	 To conduct or supervise objective audits and             General for Investigations supervises and
   investigations of the Department’s programs and          conducts OIG investigative activities related
   operations;                                              to DOT programs and operations through its
                                                            headquarters and seven major regional offices.
•	 To promote economy, effectiveness, and                   The headquarters office conducts nationwide
   efficiency within the Department;                        special investigations and analyses as well as
•	 To prevent and detect fraud, waste, and abuse in         manages the OIG Hotline Complaint Center and
   the Department’s programs;                               activities generated by complaints.

•	 To review existing and proposed laws or               •	 The Office of the Assistant Inspector General for
   regulations affecting the Department and make            Legal, Legislative, and External Affairs provides
   recommendations about them;                              a full-range of professional legal services and
                                                            advice, facilitates communications with Congress,
•	 To keep the Secretary of Transportation and              and manages public and external affairs.
   Congress fully informed about problems in
   departmental programs and operations.                 •	 The Office of the Assistant Inspector General for
                                                            Administration is divided into four suboffices:
The Inspector General is committed to fulfilling its        the Office of Procurement and Administrative
statutory responsibilities and assisting members of         Services, the Office of Budget and Financial
Congress, the Secretary, senior Department officials,       Management, the Office of Human Resources,
and the general public in achieving a safe, efficient,      and the Office of Information Technology
and effective transportation system. OIG’s audits and       Management.
investigations offices and three support offices work
together to fulfill its mission:                         •	 The Office of Quality Assurance Reviews and
                                                            Internal Affairs, under the direction of the
•	 The Office of the Principal Assistant Inspector          Deputy Inspector General, ensures that internal
   General for Auditing and Evaluation supervises           operations and functions are performed
   and conducts all audit activities related to             objectively and in an efficient and effective
   DOT programs and operations through its five             manner.
   suboffices: Aviation; Highway and Transit; Rail,




                                                                 Semiannual Report to Congress  |  121
CONTACTS

INSPECTOR GENERAL
Calvin L. Scovel III…………………………………………………………………………………… (202) 366-1959

DEPUTY INSPECTOR GENERAL
Ann Calvaresi Barr…………………………………………………………………………………… (202) 366-6767

PRINCIPAL ASSISTANT INSPECTOR GENERAL FOR INVESTIGATIONS
Timothy Barry………………………………………………………………………………………… (202) 366-1967

PRINCIPAL ASSISTANT INSPECTOR GENERAL FOR AUDITING AND EVALUATION
Lou Dixon……………………………………………………………………………………………… (202) 366-1427

ASSISTANT INSPECTOR GENERAL FOR LEGAL, LEGISLATIVE, AND EXTERNAL AFFAIRS
Brian A. Dettelbach…………………………………………………………………………………… (202) 366-8751

ASSISTANT INSPECTOR GENERAL FOR ADMINISTRATION
Susan Dailey………………………………………………………………………………………… (202) 366-1748

CHIEF OF STAFF
Madeline Chulumovich………………………………………………………………………………… (202) 366-6767

DEPUTY ASSISTANT INSPECTOR GENERAL FOR INVESTIGATIONS
Robert Westbrooks…………………………………………………………………………………… (202) 366-1972

ASSISTANT INSPECTOR GENERAL FOR AVIATION AUDITS
Jeffrey Guzzetti……………………………………………………………………………………… (202) 366-0500

DEPUTY ASSISTANT INSPECTOR GENERAL FOR AVIATION AUDITS
Matt Hampton………………………………………………………………………………………… (202) 366-1987

ASSISTANT INSPECTOR GENERAL FOR HIGHWAY AND TRANSIT AUDITS
Joe Comé……………………………………………………………………………………………… (202) 366-5630

DEPUTY ASSISTANT INSPECTOR GENERAL FOR HIGHWAY AND TRANSIT AUDITS
Thomas Yatsco………………………………………………………………………………………… (202) 366-5630

ASSISTANT INSPECTOR GENERAL FOR RAIL, MARITIME, AND HAZMAT TRANSPORT AUDITS,
AND ECONOMIC ANALYSIS
Mitchell Behm………………………………………………………………………………………… (202) 366-9970

ASSISTANT INSPECTOR GENERAL FOR FINANCIAL AND INFORMATION TECHNOLOGY AUDITS
Louis King……………………………………………………………………………………………… (202) 366-1407

ASSISTANT INSPECTOR GENERAL FOR ACQUISITION AND PROCUREMENT AUDITS
Mary Kay Langan-Feirson…………………………………………………………………………… (202) 366-5225




122  |  Contacts
To report fraud, waste, or
abuse at the U.S. Department
of Transportation, please
contact the OIG Hotline:



1-800-424-9071
hotline@oig.dot.gov
